<html>
<title> - BIOLOGICAL RESEARCH FOR ENERGY AND MEDICAL APPLICATIONS AT THE DEPARTMENT OF ENERGY OFFICE OF SCIENCE</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                     BIOLOGICAL RESEARCH FOR ENERGY
                    AND MEDICAL APPLICATIONS AT THE
                 DEPARTMENT OF ENERGY OFFICE OF SCIENCE

=======================================================================

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON ENERGY AND
                              ENVIRONMENT

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 10, 2009

                               __________

                           Serial No. 111-49

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.science.house.gov

                                 ______

                  U.S. GOVERNMENT PRINTING OFFICE
51-926                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001
                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                   HON. BART GORDON, Tennessee, Chair
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
DAVID WU, Oregon                     LAMAR S. SMITH, Texas
BRIAN BAIRD, Washington              DANA ROHRABACHER, California
BRAD MILLER, North Carolina          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            VERNON J. EHLERS, Michigan
GABRIELLE GIFFORDS, Arizona          FRANK D. LUCAS, Oklahoma
DONNA F. EDWARDS, Maryland           JUDY BIGGERT, Illinois
MARCIA L. FUDGE, Ohio                W. TODD AKIN, Missouri
BEN R. LUJAN, New Mexico             RANDY NEUGEBAUER, Texas
PAUL D. TONKO, New York              BOB INGLIS, South Carolina
PARKER GRIFFITH, Alabama             MICHAEL T. MCCAUL, Texas
STEVEN R. ROTHMAN, New Jersey        MARIO DIAZ-BALART, Florida
JIM MATHESON, Utah                   BRIAN P. BILBRAY, California
LINCOLN DAVIS, Tennessee             ADRIAN SMITH, Nebraska
BEN CHANDLER, Kentucky               PAUL C. BROUN, Georgia
RUSS CARNAHAN, Missouri              PETE OLSON, Texas
BARON P. HILL, Indiana
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
KATHLEEN DAHLKEMPER, Pennsylvania
ALAN GRAYSON, Florida
SUZANNE M. KOSMAS, Florida
GARY C. PETERS, Michigan
VACANCY
                                 ------                                

                 Subcommittee on Energy and Environment

                  HON. BRIAN BAIRD, Washington, Chair
JERRY F. COSTELLO, Illinois          BOB INGLIS, South Carolina
EDDIE BERNICE JOHNSON, Texas         ROSCOE G. BARTLETT, Maryland
LYNN C. WOOLSEY, California          VERNON J. EHLERS, Michigan
DANIEL LIPINSKI, Illinois            JUDY BIGGERT, Illinois
GABRIELLE GIFFORDS, Arizona          W. TODD AKIN, Missouri
DONNA F. EDWARDS, Maryland           RANDY NEUGEBAUER, Texas
BEN R. LUJAN, New Mexico             MARIO DIAZ-BALART, Florida
PAUL D. TONKO, New York                  
JIM MATHESON, Utah                       
LINCOLN DAVIS, Tennessee                 
BEN CHANDLER, Kentucky                   
BART GORDON, Tennessee               RALPH M. HALL, Texas
                  CHRIS KING Democratic Staff Director
        MICHELLE DALLAFIOR Democratic Professional Staff Member
         SHIMERE WILLIAMS Democratic Professional Staff Member
      ELAINE PAULIONIS PHELEN Democratic Professional Staff Member
          ADAM ROSENBERG Democratic Professional Staff Member
            JETTA WONG Democratic Professional Staff Member
         ELIZABETH CHAPEL Republican Professional Staff Member
          TARA ROTHSCHILD Republican Professional Staff Member
                      JANE WISE Research Assistant


                            C O N T E N T S

                           September 10, 2009

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Brian Baird, Chairman, Subcommittee 
  on Energy and Environment, Committee on Science and Technology, 
  U.S. House of Representatives..................................     8
    Written Statement............................................     8

Statement by Representative Bob Inglis, Ranking Minority Member, 
  Subcommittee on Energy and Environment, Committee on Science 
  and Technology, U.S. House of Representatives..................     9
    Written Statement............................................     9

Prepared Statement by Representative Jerry F. Costello, Member, 
  Subcommittee on Energy and Environment, Committee on Science 
  and Technology, U.S. House of Representatives..................    10

                               Witnesses:

Dr. Anna Palmisano, Associate Director for Biological and 
  Environmental Research, Office of Science, U.S. Department of 
  Energy
    Oral Statement...............................................    11
    Written Statement............................................    12
    Biography....................................................    18

Dr. Jay D. Keasling, Acting Deputy Director, Lawrence Berkeley 
  National Laboratory; CEO, Joint BioEnergy Institute
    Oral Statement...............................................    19
    Written Statement............................................    21
    Biography....................................................    26

Dr. Allison A. Campbell, Director, WR Wiley Environmental 
  Molecular Sciences Laboratory, Pacific Northwest National 
  Laboratory
    Oral Statement...............................................    27
    Written Statement............................................    28
    Biography....................................................    32

Dr. Aristides A.N. Patrinos, President, Synthetic Genomics, Inc.
    Oral Statement...............................................    33
    Written Statement............................................    35
    Biography....................................................    37

Dr. Jehanne Gillo, Director for Facilities and Project Management 
  Division, Office of Nuclear Physics, Office of Science, U.S. 
  Department of Energy
    Oral Statement...............................................    37
    Written Statement............................................    39
    Biography....................................................    41

Discussion
  Interagency Coordination.......................................    42
  Concerns About Limiting Research...............................    43
  Flexibility and Properly Directing Funding.....................    44
  Isotope Program................................................    45
  Cellulosic Ethanol and Algae Biofuels..........................    46
  Public-Private Partnerships....................................    47
  The Government's Role and Next Steps...........................    48
  Carbon Recycling...............................................    50
  More on Cellulosic Biofuels....................................    51
  Radioisotopes..................................................    52
  Jurisdiction Over Nuclear Medicine Issues......................    52
  Bioremediation and Isotope Research............................    53
  Algae and Harmful Algal Blooms.................................    53
  Closing........................................................    54

              Appendix: Answers to Post-Hearing Questions

Dr. Anna Palmisano, Associate Director for Biological and 
  Environmental Research, Office of Science, U.S. Department of 
  Energy.........................................................    58

Dr. Jehanne Gillo, Director for Facilities and Project Management 
  Division, Office of Nuclear Physics, Office of Science, U.S. 
  Department of Energy...........................................    59


    BIOLOGICAL RESEARCH FOR ENERGY AND MEDICAL APPLICATIONS AT THE 
                 DEPARTMENT OF ENERGY OFFICE OF SCIENCE

                              ----------                              


                      THURSDAY, SEPTEMBER 10, 2009

                  House of Representatives,
            Subcommittee on Energy and Environment,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 2:02 p.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Brian 
Baird [Chairman of the Subcommittee] presiding.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                 SUBCOMMITTEE ON ENERGY AND ENVIRONMENT

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                     Biological Research for Energy

                    and Medical Applications at the

                 Department of Energy Office of Science

                      thursday, september 10, 2009
                          2:00 p.m.-4:00 p.m.
                   2318 rayburn house office building

Purpose

    On Thursday, September 10, 2009 the House Committee on Science & 
Technology, Subcommittee on Energy and Environment will hold a hearing 
entitled ``Biological Research for Energy and Medical Applications at 
the Department of Energy Office of Science.''
    The Subcommittee's hearing will receive testimony on the biological 
research activities of the Department of Energy (DOE) Office of Science 
conducted through the Biological and Environmental Research (BER) and 
Nuclear Physics (NP) programs. It will also examine how these areas are 
related to the work of other DOE program offices and other federal 
agencies.

Witnesses

        <bullet>  Dr. Anna Palmisano is Director of BER. Dr. Palmisano 
        will provide an overview of the program and discuss its 
        coordination with other DOE program offices and federal 
        agencies.

        <bullet>  Dr. Jay Keasling is CEO of the Joint BioEnergy 
        Institute (JBEI) at Lawrence Berkeley National Laboratory. Dr. 
        Keasling will testify on the status of the three major 
        bioenergy centers and the efficacy of this model for bioenergy 
        research.

        <bullet>  Dr. Allison Campbell is Director of the WR Wiley 
        Environmental Molecular Sciences Laboratory (EMSL) at the 
        Pacific Northwest National Laboratory. Dr. Campbell will 
        explain EMSL's role in meeting DOE's mission needs with a 
        particular focus on environmental remediation.

        <bullet>  Dr. Ari Patrinos is President of Synthetic Genomics, 
        Inc. Dr. Patrinos will testify on the private sector's 
        perspective of the BER program in bioenergy, as well as his 
        experience as a former Director of BER.

        <bullet>  Dr. Jehanne Gillo is Facilities & Project Management 
        Division Director of NP. Dr. Gillo will testify on the status 
        of the isotope development and production program recently 
        transferred from the DOE Office of Nuclear Energy.

Background

    The origins of biological research conducted by the Department of 
Energy date back to 1946. The U.S. had recently developed and deployed 
the atomic bomb in World War II and was subsequently examining the 
potential peaceful uses of nuclear energy, which led to major concerns 
regarding health effects from exposure to radiation. Research in these 
health effects produced advances in genetics and developments in 
nuclear medicine, such as radioisotopes for common medical tests and 
positron emission tomography (PET) scanners that are still used to 
diagnose millions of patients each year.
    Perhaps the most significant event in the last two decades of the 
DOE Office of Science's Biological and Environmental Research (BER) 
Program was its initiation of the Human Genome Project in 1990 in 
collaboration with the National Institutes of Health (NIH). A genome is 
a complete genetic sequence of the DNA of an organism. Built on the 
advances in technology development at DOE's national laboratories, the 
Human Genome Project led to the determination of the complete DNA 
sequence of humans by 2003, two years ahead of schedule. Work to 
support the project was conducted by teams of scientists in the public 
and private sectors from around the world, and their results have 
provided new opportunities for discovering and understanding 
fundamental principles of life.

Biological Systems Science

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    BER then shifted the focus of this new capability to rapidly 
sequence an organism's complete genome to the fields of microbial and 
plant biology with an emphasis on organisms with energy and 
environmental relevance. The Biological Systems Science program within 
BER--first authorized in the Energy Policy Act of 2005--brought 
together genomic research in microbial and plant biology with protein 
science, computational biology, and environmental science to support 
the energy, national security, and environmental missions of DOE. The 
ability to study an organism beginning with its DNA sequence has 
provided new understanding of fundamental biological processes related 
to biofuels production, carbon sequestration, and environmental clean-
up. Details on current and proposed funding for Biological Systems 
Science can be found in Table 1.

Genomic Science
    The Genomic Science subprogram includes three major components:

        <bullet>  Bioenergy Research Centers--Bioenergy research is now 
        a primary focus in the BER program. In 2006 BER solicited 
        applications for several Bioenergy Research Centers. The 
        Centers were to be focused on achieving significant 
        breakthroughs in the development of cost-effective technologies 
        to make production of cellulosic (plant-fiber based) biofuels 
        commercially viable on a national scale. Each Center was chosen 
        for its unique set of skills to address three major 
        challenges--the development of next-generation bioenergy crops; 
        the discovery and design of enzymes and microbes with novel 
        biomass-degrading capabilities; and the discovery and design of 
        microbes that create fuels directly from biomass. Three were 
        finally selected in the summer of 2007, and include the:

                  BioEnergy Science Center (BESC) led by the Oak Ridge 
                National Laboratory. This center focuses on the 
                resistance of plant fiber to breakdown into sugars and 
                is studying the potential energy crops poplar and 
                switchgrass. Partners of BESC include Georgia Institute 
                of Technology Atlanta; DOE's National Renewable Energy 
                Laboratory, Golden, CO; University of Georgia in 
                Athens; University of Tennessee, Knoxville; Dartmouth 
                College, Hanover, NH; ArborGen, Summerville, SC; 
                Verenium Corporation, Cambridge, MA; Mascoma 
                Corporation, Boston, MA; The Samuel Roberts Nobel 
                Foundation, Ardmore, OK; and Ceres, Inc., Thousand 
                Oaks, CA.

                  Great Lakes Bioenergy Research Center (GLBRC) led by 
                the University of Wisconsin, Madison in close 
                partnership with Michigan State University. Other 
                partners include Illinois State University, Normal; 
                Iowa State University, Ames; Lucigen Corporation, 
                Middleton, WI; and both DOE's Oak Ridge National 
                Laboratory (ORNL) and Pacific Northwest National 
                Laboratory (PNNL). This center is studying a range of 
                plants and, in addition to exploring plant fiber 
                breakdown, aims to increase plant production of 
                starches and oils, which are more easily converted to 
                fuels. GLBRC also has a major focus on sustainability, 
                examining the environmental and socioeconomic 
                implications of moving to a biofuels economy.

                  Joint BioEnergy Institute (JBEI) led by Lawrence 
                Berkeley National Laboratory and headed by Dr. Jay 
                Keasling. JBEI is using well-characterized genomes and 
                genetic-engineering tools established for rice and 
                Arabidopsis (a small flowering plant related to 
                mustard). These two model species are ideal research 
                subjects because they go from seed to mature plant in 
                weeks or months, rather than the year or more required 
                for energy crops such as switchgrass and poplar. 
                Genetic insights from rice (a model for grasses) and 
                Arabidopsis (a model for trees) are thus expected to 
                accelerate the development of new energy crops. JBEI is 
                also exploring microbial-based synthesis of fuels 
                beyond ethanol. Partners of JBEI include DOE's Sandia 
                National Laboratories; University of California, 
                Berkeley; University of California, Davis; Carnegie 
                Institution for Science, Palo Alto, CA; and DOE's 
                Lawrence Livermore National Laboratory, Livermore, CA.

           The Centers consist of multi-disciplinary teams of 
        scientists from 18 universities, seven DOE national 
        laboratories, two nonprofit organizations, and a range of 
        private companies. They were soon authorized in the Energy 
        Independence and Security Act of 2007 in which the Secretary 
        was directed to establish at least seven bioenergy research 
        centers to accelerate basic transformational research and 
        development of biofuels.

           The funding plan for the Centers is for each to receive up 
        to $125 million over a period of 5 years starting in 2008: $25 
        million in the first year for startup costs and up to $25 
        million per year for operations during the subsequent four 
        years. The Administration's FY 2010 budget request continues 
        this plan, recommending $25 million each or $75 million in 
        total.

        <bullet>  Fundamental Genomic Research--This activity supports 
        fundamental research on microbes and plants, with an emphasis 
        on understanding biological systems across multiple scales of 
        organization, ranging from sub-cellular protein-to-protein 
        interactions to complex microbial community structures. It 
        investigates how cells are able to balance dynamic needs for 
        synthesis and assembly of cellular machinery in response to 
        changing signals from the environment. A broad diversity of 
        biological functions are examined, from microbial respiration 
        and separation of soil minerals to nutrient uptake and cell-to-
        cell communication. There is a strong focus on understanding 
        the conversion of carbon from simple forms to advanced 
        biomolecules, as well as a focus on development of new 
        strategies and tools to fully exploit the information contained 
        in complete DNA sequences from microbes and plants for 
        bioenergy, carbon sequestration, and bioremediation 
        applications.

        <bullet>  Computational Biosciences--Advanced computational 
        models and tools are needed to accurately describe the 
        biochemical capabilities of microbial communities and plants. 
        These new tools must be able to integrate diverse data types 
        and data sets into single functioning models. An important task 
        over the next several years will be the extension of database 
        capabilities beyond data generation and storage to cross-
        database comparative computational modeling so that better 
        microbes for bioenergy, carbon sequestration, or bioremediation 
        purposes can be more readily engineered. This research is 
        closely coordinated with the Office of Science's Advanced 
        Scientific Computing Research (ASCR) program.

Radiological Sciences
    The Radiological Sciences subprogram supports fundamental research 
in radiochemistry to develop new methodologies for real-time, high-
resolution imaging of dynamic biological processes. This includes 
examination of biological systems with benefits for DOE mission needs 
as well as techniques and tool development that can be applied to 
nuclear medicine diagnostic and therapeutic research.
    This subprogram also supports research that will help determine 
health risks from exposures to low levels of radiation, information 
critical to adequately and appropriately protect radiation workers and 
the general public. It provides a scientific basis for decisions 
regarding remediation of contaminated DOE sites and for determining 
acceptable levels of human health protection, both for cleanup workers 
and the public.

Medical Applications
    The Medical Applications subprogram utilizes resources and 
expertise in engineering and materials science primarily available at 
DOE national laboratories rather than NIH facilities to develop unique 
neuroprostheses--medical devices that connect directly to the human 
brain, spinal cord, or nerves. It has focused in particular on the 
development of an artificial retina to restore sight to the blind. 
DOE's goal for this project is to create the technology underpinning a 
device that will allow a blind person to read large print, recognize 
faces, and move around without difficulty. The DOE-funded phase of the 
artificial retina project will be completed in FY 2010.

Biological Systems Facilities and Infrastructure

        <bullet>  Joint Genome Institute--The Joint Genome Institute 
        (JGI), based in Walnut Creek, CA and operated by the University 
        of California, is the only federally funded large center 
        focusing on genome discovery and analysis in plants and 
        microbes for energy and environmental applications, including 
        bioenergy, carbon cycling and sequestration, and soil 
        remediation. JGI incorporates expertise from five DOE partner 
        laboratories--Lawrence Berkeley (LBL), Lawrence Livermore 
        (LLNL), Los Alamos, Oak Ridge, and Pacific Northwest--along 
        with the HudsonAlpha Institute for Biotechnology. Its workforce 
        draws most heavily from LBL and LLNL. Through the development 
        of genome assembly methods, tools for comparative gene 
        analysis, and integration of data from multiple technology 
        platforms, JGI enables researchers and plant breeders to 
        identify traits and genes for specific bioenergy applications 
        or environmental conditions. The Institute provides these 
        services to the broad scientific user community, including the 
        Bioenergy Research Centers, on a merit-reviewed basis. 
        Synthetic Genomics Inc. (SGI), a privately-held company, is the 
        only other institution with similar capabilities in the world.

        <bullet>  Structural Biology Infrastructure--The Structural 
        Biology Infrastructure program develops and supports access to 
        DOE's national user facilities for the Nation's systems 
        biologists. BER coordinates with NIH and the National Science 
        Foundation (NSF) the management and maintenance of 22 
        experimental stations at several DOE light and neutron sources 
        used to examine biological materials and processes. BER 
        assesses the quality of the instrumentation at its experimental 
        stations and supports upgrades to install the most effective 
        instrumentation for taking full advantage of the facility 
        capabilities as they are improved by DOE. This activity enables 
        a broad user community to conduct the high-resolution study of 
        biological molecules involved in cellular architecture, 
        environmental sensing, and carbon capture.

Isotope Development and Production for Research and Applications

    In FY 2009, the Isotope Development and Production for Research and 
Applications subprogram was transferred to the DOE Office of Science's 
Nuclear Physics (NP) program from the Office of Nuclear Energy. This 
subprogram provides facilities and capabilities for the production of 
isotopes to address national needs. Stable and radioactive isotopes are 
vital to the mission of many federal agencies and play a crucial role 
in basic research, medicine, industry, and homeland defense. Isotopes 
are produced for the National Institutes of Health (NIH) and their 
grantees, National Institute of Standards and Technology, Environmental 
Protection Agency, Department of Agriculture, National Nuclear Security 
Administration (NNSA), Department of Homeland Security (DHS), other DOE 
Office of Science programs, and other federal agencies. The subprogram 
also supports research related to the development of advanced isotope 
production techniques.
    Isotopes are used to improve the accuracy and effectiveness of 
medical diagnoses and therapy, enhance national security through the 
development of advanced sensors, improve the efficiency of industrial 
processes, and provide precise measurement and investigative tools for 
materials, biomedical, environmental, archaeological, and other 
research. Some examples are: strontium-82 used for heart imaging; 
arsenic-73 used as a tracer for environmental research, and helium-3 as 
a component in neutron-detectors that may be used to scan for 
radioactive weapons.
    The consequences of shortages of radioactive and stable isotopes 
needed for research, medicine, homeland security, and industrial 
applications can be extremely serious ranging from the inability to 
treat cancer to the failure of detecting terrorist threats. To address 
several of these issues before they become larger problems, NP has 
established a working group with NIH to act on the recommendations of a 
2007 National Academies report, Advancing Nuclear Medicine through 
Innovation, which identified areas in isotope production warranting 
attention. NP has also facilitated the formation of a federal working 
group on He-3 supply, involving staff from NP, NNSA, DHS, and the 
Department of Defense.
    Isotopes are made available by using NP's unique facilities, 
including the Brookhaven Linear Isotope Producer (BLIP) at Brookhaven 
National Laboratory and the Isotope Production Facility (IPF) at Los 
Alamos National Laboratory. The subprogram also produces isotopes at 
the reactors at Oak Ridge and Idaho National Laboratories. It operates 
under a revolving fund as established by the FY 1990 Energy and Water 
Development Appropriations Act, and maintains its financial viability 
by utilizing a combination of Congressional appropriations and revenues 
from the sale of isotopes and services. These resources are used to 
maintain the staff, facilities, and capabilities at user-ready levels 
and to support peer-reviewed research and development activities 
related to the production of isotopes. Commercial isotopes are priced 
at full cost. Research isotopes are priced to provide reasonable 
compensation to the government while encouraging research.
    Chairman Baird. Our hearing will now to come order. I want 
to welcome everyone to today's hearing on Biological Research 
for Energy and Medical Applications at the Department of Energy 
Office of Science. Our hearing today will explore the Office of 
Science's biological research programs and how they fit in with 
our broader federal research infrastructure for energy, 
environmental, and medical applications.
    The Department of Energy's role in examining biological 
processes is not always well understood, nor is it appreciated 
always, but it dates back to 1946. At that time, of course, we 
needed to learn more about the effects that radiation could 
have on people from the use of either atomic weapons or nuclear 
power. This required bringing together the best and brightest 
researchers from both physical and medical sciences to study 
the issue.
    Over the years DOE developed unique engineering 
capabilities within its national laboratories that allow the 
Department to quickly catalog the building blocks of living 
organisms. These technologies are what enable the Human Genome 
Project to be considered by scientists at DOE and NIH in the 
late 1980s and the successfully completed that project on 
budget and ahead of schedule by 2003.
    Today the Office of Science focuses on these capabilities 
on--focuses these capabilities on developing next-generation 
biofuels, finding ways, new ways to sequester carbon, and on 
cleaning up the legacy waste from our nuclear weapons complex.
    In addition, DOE's nuclear physics program has recently 
shouldered the responsibility of providing critical, non-
commercial isotopes for cancer treatments as well as other 
research applications.
    I look forward to learning more about the progress DOE is 
making in working with NIH and other agencies to meet the 
science and medical communities' needs.
    And with that I would like to thank this excellent panel of 
witnesses for appearing, and I yield to our distinguished 
Ranking Member, Mr. Inglis.
    [The prepared statement of Chairman Baird follows:]

               Prepared Statement of Chairman Brian Baird

    Today's hearing will explore the Office of Science's biological 
research programs, and how they fit in with our broader federal 
research infrastructure for energy, environmental, and medical 
applications. The Department of Energy's role in examining biological 
processes is not always well understood nor is it appreciated, but it 
dates back to 1946. At that time we needed to learn more about the 
effects that radiation could have on people from the use of either 
atomic weapons or nuclear power. This required bringing together the 
best and brightest researchers from both physical and medical sciences 
to study the issue. Over the years, DOE developed unique engineering 
capabilities within its national laboratories that allowed the 
Department to quickly catalogue the building blocks of living 
organisms. These technologies are what enabled the Human Genome Project 
to even be considered by scientists at DOE and NIH in the late '80s, 
and then successfully completed on budget and ahead of schedule by 
2003.
    Today, the Office of Science focuses these capabilities on 
developing next-generation biofuels, finding new ways to sequester 
carbon, and on cleaning up the legacy waste from our nuclear weapons 
complex. In addition, DOE's nuclear physics program has recently 
shouldered the responsibility of providing critical non-commercial 
isotopes for cancer treatments as well as other research applications. 
I look forward to learning more about the progress DOE is making in 
working with NIH and other agencies to meet the scientific and medical 
communities' needs.
    With that I'd like to thank this excellent panel of witnesses for 
appearing before the Subcommittee this afternoon, and I yield to our 
distinguished Ranking Member, Mr. Inglis.

    Mr. Inglis. Thank you, Mr. Chairman, and thank you for 
holding this hearing.
    Today we are going to find out about the complexity of the 
Department of Energy's Office of Science. Biology isn't the 
first thing the comes to mind when we think of critical 
research gaps in developing new energy technologies, but the 
Biological Environmental Research Program at the Office of 
Science is currently advancing biofuel development, helping us 
better understand the impacts of climate change in our 
environment and improving medical technologies.
    Research in 1949, about the health impacts of radiation 
exposure has evolved into dramatic advancements in genetics, 
radiology, and nuclear medicine. One of the most notable 
achievements of biological research at DOE is certainly the 
Human Genome Project. In coordination with NIH, the project 
resolved the complex human DNA sequence in 13 short years.
    With the diversity of efforts at DOE I am looking forward 
to hearing about other potential breakthroughs from our 
witnesses, particularly in the area of biofuels.
    I should also admit to a parochial interest in the 
Biological Environmental Research Program. Clemson University 
in the upstate of South Carolina has a remarkable research 
program in the college of agriculture, forestry, and life 
sciences. Researchers there do a considerable amount of work on 
the genomics and development of biofuel crops and have 
collaborated with DOE on several such projects previously, as 
you point out in your testimony, Dr. Keasling.
    Again, I am very much looking forward to the testimony of 
our witnesses, while much of the work in the Biological 
Environmental Research Program seems only loosely related to 
the overall mission of DOE, they are working on exciting 
progress in a variety of energy and medical initiatives.
    Thank you, Mr. Chairman, for holding the hearing and look 
forward to hearing the witnesses.
    [The prepared statement of Mr. Inglis follows:]

            Prepared Statement of Representative Bob Inglis

    Good afternoon and thank you for holding this hearing, Mr. 
Chairman.
    Today we're going to be reminded of the unique complexity of the 
Department of Energy's Office of Science. Certainly biology is not the 
first thing that comes to mind when we think of critical research gaps 
in developing new energy technologies. The Biological and Environmental 
Research Program in the Office of Science is currently advancing 
biofuel development, helping us better understand the impacts of 
climate change on our environment, and improving medical technologies.
    Research in 1949 about the health impacts of radiation exposure has 
evolved into dramatic advancements in genetics, radiology, and nuclear 
medicine. One of the most notable achievements of biological research 
at DOE is certainly the Human Genome Project. In coordination with NIH, 
the Human Genome Project resolved the complete human DNA sequence in 13 
short years. With the diversity of efforts at DOE, I'm looking forward 
to hearing about other potential breakthroughs from our witnesses, 
particularly in the area of biofuels.
    I also should admit a parochial interest in the Biological and 
Environmental Research Program. Clemson University in the Upstate has a 
remarkable research program in the College of Agriculture, Forestry, 
and Life Sciences. Researchers there do a considerable amount of work 
on the genomics and development of biofuel crops, and have collaborated 
with DOE on several such projects previously, as you point out in your 
testimony, Dr. Keasling.
    Again, I'm very much looking forward to the testimony of our 
witnesses. While much of the work in the Biological and Environmental 
Research Program seems only loosely related to the overall mission of 
DOE, they are working on exciting progress in a variety of energy and 
medical initiatives.
    Thank you again for bringing us back from the August recess with 
this hearing, Mr. Chairman.

    Chairman Baird. Thank you, Mr. Inglis.
    [The prepared statement of Mr. Costello follows:]

         Prepared Statement of Representative Jerry F. Costello

    Good afternoon. Thank you, Mr. Chairman, for holding today's 
hearing to receive testimony on the medical and energy applications of 
biological research conducted by the Biological and Environment 
Research (BER) Program at the Department of Energy (DOE) Office of 
Science.
    BER demonstrated its capacity for cutting-edge research in 2003, 
when its scientists completed the Human Genome Project and produced the 
first map of the entire human DNA sequence. Since that accomplishment, 
BER has continued to use its ability to map an organism's genome to 
make major advances in energy and medical research.
    The energy applications of BER research are particularly important 
to Illinois. I am proud that the Normal, IL, campus of Illinois State 
University is partnered with the Great Lakes Bioenergy Research Center 
to engage in cutting-edge research on the production of biofuels. These 
research efforts will enhance the work being done at Southern Illinois 
University--Edwardsville's National Corn to Ethanol Research Center and 
make renewable fuels easier to produce and more sustainable to use. In 
addition, the Fundamental Genomic Research conducted by BER is in the 
process of developing innovative ways to sequester carbon in the soil, 
making clean coal facilities more efficient and helping new clean coal 
facilities come online in the future. As a major supporter of the 
FutureGen project in Mattoon, IL, I applaud BER's efforts to support 
clean coal technology.
    The collaborative efforts between national laboratories, 
universities, non-profit organizations, and the private sector have 
allowed BER to develop new medical and energy applications for 
biological research. I would be interested to hear from our witnesses 
how Congress can continue to support this collaboration. In particular, 
I look forward to hearing how can Congress support efforts to move 
these important projects towards demonstration and, eventually, 
commercial viability on a national scale.
    I welcome our panel of witnesses, and I look forward to their 
testimony. Thank you again, Mr. Chairman.

    Chairman Baird. It is my pleasure to introduce our 
distinguished witnesses at this time. Dr. Anna Palmisano is the 
Director of the Office of Biological and Environmental Research 
at DOE. Dr. Jay Keasling is the Acting Deputy Director of 
Lawrence Berkeley National Laboratory and Chief Executive 
Officer of the Joint BioEnergy Institute at DOE. Dr. Allison 
Campbell, we are proud to say, is the Director of the WR Wiley 
Environmental Molecular Sciences Laboratory at Pacific 
Northwest National Laboratory (PNNL), near and dear to my 
heart. Dr. Ari Patrinos is the President of Synthetic Genomics, 
Incorporated. Dr. Jehanne Gillo is the Director of the--did I 
say that right?
    Dr. Gillo. Gillo.
    Chairman Baird. That would be Gillo. Are you sure you are 
right? Okay. We will go with Gillo if you say so. And after 
all, you are the Director of Facilities and Project Management 
Division in the Office of Nuclear Physics at DOE.
    As our witnesses should know, you will have five minutes 
for your spoken testimony. Your written testimony will be 
included in the record. When you have completed your spoken 
testimony, we will begin with questions. Each Member will have 
five minutes to question.
    Again, I just want to apologize. We normally have a pretty 
packed house on this panel, but with early dismissal today 
folks are racing home to their districts. Some have said they 
will try to make it. They also have, believe it or not, many 
other hearings conflicting with this, but we have an incredibly 
distinguished panel. We look forward very much to learning your 
input, and please, we will ask Dr. Palmisano to begin, please.

    STATEMENT OF DR. ANNA PALMISANO, ASSOCIATE DIRECTOR FOR 
BIOLOGICAL AND ENVIRONMENTAL RESEARCH, OFFICE OF SCIENCE, U.S. 
                      DEPARTMENT OF ENERGY

    Dr. Palmisano. Mr. Chairman, Ranking Member Inglis, and 
Members of the Committee, I appreciate the opportunity to 
appear before you today to discuss the Biological and 
Environmental Research Program in the Department of Energy's 
Office of Science. I am the program director.
    Biological and Environmental Research, known as BER, 
supports innovative and transformational science to provide a 
fundamental understanding of biological, climate, and 
environmental systems. Through our research programs and our 
scientific facilities we support a wide range of disciplines to 
engage a broad scientific community, using peer review to 
ensure scientific excellence.
    The BER Program addresses three major scientific 
challenges. The first challenge is to explore the frontiers of 
genome-enabled biology. BER supports research that uncovers 
nature's secrets to harness the catalytic power and biomass of 
microbes and plants for bioenergy, the carbon cycle, and 
bioremediation. Starting with an organism's DNA, BER-funded 
scientists seek to understand whole biological systems as they 
interact with their environments.
    The second challenge is to discover the physical, chemical, 
and biological drivers of climate change. BER plays a vital 
role in the U.S. Global Climate Change Research Program by 
improving predictive climate models and by addressing some of 
the key uncertainties such as clouds and aerosols in the carbon 
cycle.
    The third challenge is to seek the scientific basis for 
environmental sustainability and stewardship. The Earth's 
subsurface is a new frontier for discovering novel microbes and 
understanding geochemical and hydrological processes that 
affect the fate and transport of environmental contaminants.
    BER supports three world-leading scientific facilities that 
benefit a broad community of scientists. The Joint Genome 
Institute provides state-of-the-art genome sequencing and 
bioinformatic analysis for microbes and plants of energy and 
environmental significance. To date the Joint Genome Institute 
has sequenced over 500 microbes and microbial communities, as 
well as 25 plants.
    The Environmental Molecular Sciences Laboratory provides 
novel experimental and computational tools for molecular-level 
studies of the environment.
    The Atmospheric Radiation Measurement Climate Research 
Facility provides unmatched level of observations and 
measurements of climate--of clouds and aerosols for climate 
researchers.
    BER-supported biological research has a long history of 
major contributions to the DOE mission and national needs 
through discovery, science and innovation. Today BER supports 
genome-enabled research to understand biological systems, 
ranging from single microbes to microbial communities to 
plants. Our ultimate goal is to predict, manage, and control 
biological systems to support mission needs in bioenergy 
production, climate change, and environmental stewardship and 
sustainability.
    In September 2007, three DOE bioenergy research centers 
were launched to provide transformational science to overcome 
the most difficult scientific and technological barriers to the 
production of biofuels. Scientists are using systems biology to 
discover and optimize enzymes, microbes, and plants that will 
lead to new approaches to cellulosic biofuels.
    BER is deeply committed to coordination with the DOE's 
technology offices to facilitate a smooth transition of 
knowledge to application. Successful mechanisms for 
coordination include participation in joint reviews, site 
visits, science team meetings, and strategic planning. BER-
supported research provides the fundamental knowledge of 
microbes and plants needed by the DOE's Office of Energy 
Efficiency and Renewable Energy for the successful development 
and deployment of new bioenergy crops for sustainable biofuel 
production.
    BER research on the fate and transport of contaminants and 
the subsurface environment provides knowledge for DOE's Office 
of Environmental Management to develop new strategies for 
stewardship and remediation of contaminants and for DOE's 
Office of Legacy Management to develop tools to monitor 
contaminants at clean-up sites.
    Looking to the future, BER will strive to continue to 
advance the Nation's biologic, climate and environmental 
science through leading-edge programs that meet DOE needs.
    Thank you, Mr. Chairman, for providing this opportunity to 
discuss Biological and Environmental Research Program at the 
DOE's Office of Science. This concludes my testimony, and I 
would be pleased to answer any questions you may have.
    [The prepared statement of Dr. Palmisano follows:]

                  Prepared Statement of Anna Palmisano

    Thank you Mr. Chairman, Ranking Member Inglis, and Members of the 
Committee. I appreciate the opportunity to appear before you today to 
discuss the Biological and Environmental Research (BER) Program in the 
Department of Energy's (DOE's) Office of Science (SC). I am the Program 
Director.

Overview of the Biological and Environmental Research Program

    The BER program supports fundamental research and scientific user 
facilities designed to advance our understanding of complex biological, 
climate, and environmental systems. A hallmark of BER-supported 
research is the strong coupling of theory, observations, experiments, 
models, and simulations, with an emphasis on interdisciplinary 
research. The nature of biological, climate, and environmental research 
necessitates involvement of a wide range of scientific disciplines 
including microbiology, plant sciences, computational sciences, 
ecology, geochemistry, atmospheric sciences, and hydrology, to name 
just a few.
    Using peer review to ensure scientific excellence, the BER program 
engages scientists from national laboratories, universities, and the 
private sector to generate cutting edge science. In FY 2009, BER 
supported more than 1,800 Ph.D. scientists and nearly 500 students. In 
addition, BER user facilities hosted more than 2,500 biological, 
climate, and environmental scientists. In FY 2009, the BER program 
funded research at more than 85 academic and private institutions in 39 
states and at nine DOE laboratories in eight states.
    The BER program is organized into two subprograms--Biological 
Systems Science and Climate and Environmental Sciences--that provide 
the fundamental knowledge for:

Exploring the frontiers of genome-enabled biology. BER Biological 
Systems Science subprogram supports research that uncovers nature's 
secrets to harness the catalytic power and biomass of microbes and 
plants for DOE mission priorities in bioenergy, carbon cycle, and 
bioremediation. Starting with an organism's DNA, BER-funded scientists 
seek to understand whole biological systems as they interact with their 
environments. BER scientists investigate a range of systems from 
individual proteins and other molecules, to groups of molecules that 
comprise molecular machines, to interconnected biological networks 
comprising whole cells, communities, and entire ecosystems. BER also 
supports the development of new tools and technologies to explore the 
interface of the biological and physical sciences.

Discovering the physical, chemical, and biological drivers of climate 
change. The BER Climate and Environmental Sciences subprogram plays a 
vital role in the U.S. Global Change Research Program by supporting 
research to improve predictive climate models by addressing key 
uncertainties such as clouds and aerosols and the carbon cycle. BER 
scientists study atmospheric processes, climate change modeling, 
interactions between ecosystems and greenhouse gases, and the impacts 
of climate change on energy production and use.

Seeking the geochemical, hydrological, and biological determinants of 
environmental sustainability and stewardship. The Earth's subsurface is 
a new frontier for discovering novel microorganisms and understanding 
important geochemical and hydrological processes that affect the fate 
and transport of environmental contaminants. The BER Climate and 
Environmental Sciences subprogram supports laboratory studies and field 
scale hypothesis-testing at BER's Integrated Field Research Centers to 
provide the foundational knowledge needed for cost-effective strategies 
for environmental stewardship and remediation.
    BER supports three world-leading scientific facilities. The 
Biological Systems Science program supports the Joint Genome Institute 
(JGI) which provides state-of-the-art genome sequencing and 
bioinformatic analysis for microbes and plants of energy and 
environmental significance. The JGI has sequenced 500 microbes and 
microbial communities, as well as 25 plants using state-of-the-art 
sequencing and genomic analysis. The JGI is an innovator in genomic 
sequence and analysis of complex microbial communities that degrade 
cellulose, sequester carbon dioxide, and remediate environmental 
contaminants. Recent scientific accomplishments include the genome 
sequencing of key plants of bioenergy and agricultural importance 
(soybean, sorghum) and microbes of importance to the carbon cycle 
(single celled algae) and development of advanced data analysis tools 
for metagenomes.
    The Climate and Environmental Sciences program supports the 
Atmospheric Radiation Measurement Climate Research Facility (ACRF) and 
the Environmental Molecular Sciences Laboratory (EMSL). ACRF consists 
of three stationary facilities that provide an unmatched level of 
observations and measurements of clouds and aerosols, as well as two 
mobile facilities that are strategically deployed by the scientific 
community. In the past year, a mobile facility was deployed to China to 
measure aerosols and to the Azores to collect measurements on the 
marine boundary layer near the Equator. In 2009, the ACRF hosted more 
than 800 users, resulting in over 185 publications in the scientific 
literature. The Environmental Molecular Sciences Laboratory (EMSL) 
supports scientific discovery at the frontier of molecular systems 
science and serves 600-700 scientists annually. EMSL develops and 
applies one-of-a-kind experimental and computational tools to novel 
molecular-level studies of complex environmental systems.
    BER is using FY 2009 American Recovery and Reinvestment Act 
(Recovery Act) funds to update, improve, and optimize the capabilities 
of its three user facilities and the three Bioenergy Research Centers 
and to initiate planning and development for a Systems Biology 
Knowledgebase to manage and integrate large systems biology data sets.

Biological Systems Science

    BER supported biological research has a long history of major 
contributions to DOE mission and national needs through science, 
discovery, and innovation. BER's origins date to 1946, the atomic bomb, 
concerns for health effects from exposure to radiation, and the promise 
of benefits from peaceful uses of nuclear energy. Health effects 
research gave us breakthroughs in genetics and developments in nuclear 
medicine. Interest in the effects of radiation exposure led to 
understanding the most fundamental level of biology, DNA, and prompted 
DOE to initiate the Human Genome Project, spearheading today's 
biotechnology revolution.
    Today, BER supports discovery science to understand complex 
biological systems. Our ultimate goal is to predict, manage, and 
control biological systems to support mission needs in bioenergy 
production, climate change, and environmental stewardship and 
sustainability. To this end, BER supports work to address some of the 
toughest
    grand challenge science questions facing biologists: to understand 
the functions and emergent properties of biological systems at multiple 
levels. These systems can range in complexity from single microbes to 
multicellular frameworks of plants, microbial communities, and plant-
microbe associations; yet all are specified by underlying information 
encoded in the organism's genome. The subprogram supports systems 
biology approaches that translate the genomic blueprint into 
subcellular proteins, metabolites, and cellular architecture that 
govern biological function and the interactions between an organism and 
its environment. Systems biology approaches include genome sequencing, 
proteomics, metabolomics, structural biology, high-resolution imaging 
and characterization, and integration of the resulting information into 
predictive computational models of biological systems that can be 
tested and validated.
    BER's foundational science in biological systems addresses critical 
national needs in energy production and understanding the consequences 
of energy use. Scientific innovation and discovery that drive new 
solutions is essential for meeting the challenges posed by the energy 
demands of a growing population and the impacts of energy use on 
climate and the environment. The ongoing revolution in biological 
sciences, driven by genomics, provides new ideas and paradigms for the 
synthesis of novel biofuels as well as new approaches for understanding 
the carbon cycle and harnessing the catalytic power of microbes for 
bioremediation.

Input from the Scientific Community

    The BER biological sciences subprogram engages the scientific 
community through focused scientific workshops and program reviews and 
through the Biological and Environmental Research Advisory Committee 
(BERAC). Hundreds of scientists provide input to BER programs every 
year.
    For example, in May 2008, BER hosted a workshop on ``Systems 
Biology Knowledgebase for a New Era in Biology'' in coordination with 
the Office of Science's Office of Advanced Scientific Computing 
Research. A knowledgebase is comprised of a data repository and a suite 
of tools for data analysis, comparison, visualization, and integration. 
It also provides a framework for creating, testing, and improving 
predictive models of biological systems. The workshop participants 
described the need to facilitate the integration of diverse types of 
biological data as well as environmental data describing the organism's 
habitat.
    Another example is a November 2008 community-based workshop, ``New 
Frontiers of Science in Radiochemistry and Instrumentation for 
Radionuclide Imaging.'' BER supports research in radiochemistry and 
radiotracer development with the goal of developing new methodologies 
for real-time, high-resolution imaging of dynamic in plants and 
microbes, with the potential for broader application to areas of human 
health. Participants included leading scientists from DOE laboratories, 
universities, and federal agencies such as the National Institutes of 
Health (NIH). The workshop participants identified knowledge gaps and 
future opportunities for development of new radiochemical tracers and 
new imaging modalities.

Details of the Biological Systems Science Subprogram

    This subprogram explores the fundamental principles that drive the 
function and structure of living systems of importance to energy and 
the environment.

Genomic sciences use the genome as a blueprint for the foundational 
biological understanding of microbes, microbial communities, and 
plants. The research addresses: What information is contained in the 
genome sequence of microbes and plants? How is that information 
translated to proteins and metabolic networks? And, how can we predict 
and control biological responses to environmental changes?

Three DOE Bioenergy Research Centers (BRCs)--led by Lawrence Berkeley 
National Laboratory, Oak Ridge National Laboratory, and the University 
of Wisconsin at Madison in partnership with Michigan State University--
support multi-disciplinary teams of leading scientists to accelerate 
transformational breakthroughs needed to convert cellulose to biofuels. 
A more detailed description of the BRCs is provided later in the 
testimony.

The Joint Genome Institute (JGI) is a high-throughput DNA sequencing 
facility providing the basis for the systems biology of environmental 
and energy-related microbes and plants. Current sequencing capacity at 
the JGI is over 124 billion base pairs per year and is growing rapidly. 
JGI provides the scientific community with the latest technologies for 
genomic sequencing, genetic analysis, and genomic comparison.

Structural biology supports access to DOE's world-class synchrotron and 
neutron sources for scientists to understand the proteins encoded by 
DNA. Radiochemistry and imaging instrumentation focuses on development 
of new methods for real-time, high-resolution imaging of energy- and 
environmentally-relevant biological systems. This fundamental research 
and tool development may have broader applications to nuclear medicine. 
Radiobiology supports research on the biological effects of exposure to 
low dose radiation.

DOE Bioenergy Research Centers

    In September 2007, three DOE Bioenergy Research Centers (BRCs) were 
launched to provide transformational science to overcome the most 
difficult scientific and technological barriers to the production of 
biofuels from microbes and plants. The Centers are marshalling the full 
arsenal of modern genomics-based methods to overcome plant cell wall 
recalcitrance. Scientists are using systems biology to model, predict, 
and engineer optimized enzymes, microbes, and plants for the discovery 
and development of new, innovative approaches to efficient cellulosic 
biofuels production. Expertise at the BRCs spans the physical and 
biological sciences, including genomics, microbial and plant biology, 
analytical chemistry, computational biology and bioinformatics, and 
engineering. The BRCs engage DOE National Laboratories, universities, 
and the private sector in interdisciplinary partnerships to ensure the 
best possible science and rapid transition to application. The BRCs 
serve to galvanize the top researchers in the field to accelerate the 
scientific breakthroughs needed by the emerging biofuel industry.
    Although the Bioenergy Research Centers have only been fully 
operational for two years, some early successes include:

1.  New High-Throughput Pipeline to Identify Improved Bioenergy 
Feedstocks
    The BioEnergy Science Center (BESC) developed a screen to rapidly 
identify the chemical, structural, and genetic features of biomass that 
provide better access to the sugars within plant biomass. This pipeline 
can screen more than 10,000 samples per week which is over 100-fold 
more biomass samples per day than conventional methods. BESC 
researchers tested 1,100 poplar trees from the Pacific Northwest. 
Digestibility or sugar release ranged from 0.2 to 0.7 grams of sugar 
per gram of biomass--the highest numbers will bring us close to desired 
commercial biofuels production levels. This screening is accelerating 
the discovery and optimization of plants most easily converted into 
biofuels.

2.  Innovations in Biomass Pretreatment and Deconstruction
    Researchers at the Joint BioEnergy Institute (JBEI) have developed 
an advanced biomass pretreatment process using room temperature ionic 
liquids that completely remove virtually all the lignin from the plant 
cell walls of switchgrass, corn stover, and eucalyptus. This approach 
has reduced by a factor of five the time required for enzymatic 
breakdown of biomass. Researchers have also developed a new cellulase 
enzyme that is more stable and active in ionic liquid solutions at 
elevated temperatures and low pH. Patents have been filed on both these 
innovations.

3.  Improved Screening for the Discovery of Biomass-degrading Enzymes

    Microorganisms in natural environments have evolved enzymes for 
degrading biomass; however, conventional methods for identifying these 
enzymes are inefficient and time consuming. Scientists at the Great 
Lakes Bioenergy Research Center (GLBRC) are coupling a novel genetic 
expression approach with a newly developed enzymatic screening process 
to dramatically improve the discovery of new cellulose-degrading 
enzymes. They found that the rate and efficiency of enzyme discovery 
was 100 times higher with the new expression and screening tools than 
conventional methods. The novel cellulose-degrading microbes or enzymes 
that are being discovered are providing hundreds of candidate 
hydrolytic enzymes for use in biomass-degradation studies.

R&D Coordination in the Biological Sciences

    BER is deeply committed to coordinating with DOE's technology 
offices to better integrate the basic and applied research supported by 
the Department. We have developed and maintained good working 
relationships with DOE technology offices and other key stakeholders. 
BER works closely with DOE's Office of the Biomass Program (OBP) in the 
Office of Energy Efficiency and Renewable Energy (EERE). Strong 
partnerships have been forged and maintained to facilitate the 
transition of scientific knowledge to applications that address DOE 
mission needs.
    BER has a long history of coordination with OBP that began over a 
decade ago, when we worked with OBP and the scientific community to 
identify key microbes of importance for the breakdown of cellulosic 
biomass. Those microbes were subsequently sequenced by the JGI, and 
bioenergy researchers worldwide have greatly benefited from that new 
knowledge. From the earliest stages of planning BER bioenergy research, 
we have worked closely with OBP--beginning with the jointly funded 2006 
workshop ``Breaking the Biological Barriers to Cellulosic Ethanol: A 
Joint Research Agenda.'' The workshop report provided a roadmap for 
addressing the toughest research questions to support biofuel 
production. BER-supported research on the biochemical pathways and 
genetic mechanisms of microbes and plants provides knowledge needed by 
OBP (and the U.S. Department of Agriculture) to make decisions about 
the development and deployment of new bioenergy crops and cost 
effective and sustainable approaches to bioenergy production.
    BER takes advantage of numerous mechanisms to encourage knowledge 
transfer from BER science discoveries to applied programs within the 
Department of Energy, including: 1) Regularly-scheduled program 
briefings between SC-BER and EERE-OBP program staff; 2) briefings by 
BRC directors to OBP program managers; 3) participation and attendance 
at program reviews and investigator meetings for SC-BER and EERE-OBP; 
and 4) joint participation in interagency working groups by SC-BER and 
EERE-OBP program staff, such as the Biomass Research and Development 
Board and the Metabolic Engineering Working Group. Moreover, EERE is 
planning to use Recovery Act funds to build a pilot biorefinery that 
can be used as a testbed for products from the three BRCs. Such an 
approach will help to facilitate a smooth transition of knowledge from 
the BRCs to applications by EERE.

Coordination and Partnering with other Federal Agencies in Biological 
                    Sciences

    A hallmark of the BER program is the coordination of research 
across federal agencies and scientific disciplines. BER values 
partnering and cooperation with many research agencies, including the 
National Science Foundation (NSF), the U.S. Department of Agriculture 
USDA, the NIH, the National Aeronautics and Space Administration 
(NASA), and others. Several examples of interagency activities in the 
biological sciences include the following:

        <bullet>  BER and the USDA have partnered on a competitive 
        grants program entitled Plant Feedstock Genomics for Bioenergy. 
        Now in its fourth year, the program develops and applies the 
        latest approaches in plant genomics to marker-assisted plant 
        breeding and crop production for potential bioenergy crops, 
        including fast growing trees, shrubs, and grasses.

        <bullet>  BER coordinates with seven other agencies in the 
        Metabolic Engineering Interagency Program. The program, now in 
        its 11th year, supports innovative research in the fields of 
        targeted metabolic pathway design and construction.

        <bullet>  BER supports the Protein Data Bank with NIH and NSF. 
        This community resource provides an archive of experimentally 
        determined, three-dimensional structures of biological 
        macromolecules.

        <bullet>  BER is an active participant and partner with NSF and 
        USDA in the National Plant Genome Initiative. Current focus of 
        this initiative is the sequencing and analysis of the maize 
        (corn) genome.

        <bullet>  BER actively coordinates with NIH on areas of common 
        interest such as tools and technologies for data management, 
        genome annotation, structural biology, proteomics, and 
        radiochemistry. For example, BER and the Office of Science's 
        Office of Nuclear Physics co-chair a working group with NIH on 
        radioisotope production and use.

    In addition, BER actively participates in numerous working groups 
to enhance dialogue and coordination. Interagency activities such as 
these ensure that the BER portfolio is well-coordinated with other 
agencies and that opportunities for interagency partnering are 
vigorously pursued.

Climate and Environmental Sciences Subprogram

    The Climate and Environmental Sciences subprogram addresses 
national needs and DOE priorities in energy, environment, and security. 
Although this hearing is focused on BER's biology programs, I would 
like to share a few highlights from our climate and environmental 
programs which represent almost half (47 percent) of BER's budget. The 
subprogram supports an integrated portfolio of research ranging from 
molecular to field scale studies with emphasis on the use of advanced 
computer models, interdisciplinary experimentation, and observations. 
BER supports fundamental research activities as well as two national 
scientific user facilities for climate and environmental science.
    DOE plays a vital role in advancing fundamental climate and 
environmental research as part of the U.S. Global Climate Change 
Research Program. BER supports a unique set of resources and 
capabilities to address the major questions of global climate change 
with a goal of providing more accurate simulations of the Earth's 
climate. Climate simulations provide the foundations for future climate 
projections and guide potential mitigation or adaptation strategies, 
thereby informing the Nation's energy policies, and contribute to 
assessments by the Intergovernmental Panel on Climate Change. BER 
climate research addresses the areas of greatest uncertainty in climate 
change: clouds and aerosols and carbon cycling. BER also develops 
world-class coupled climate models that take advantage of DOE's 
leadership computing capabilities. Reducing uncertainty in climate 
prediction will help us to identify potential vulnerabilities and to 
develop new approaches for mitigation and adaptation to climate change. 
The BER Atmospheric Radiation Measurement Climate Research Facility 
(ACRF) provides key observational data to the climate research 
community on the radiative properties of the atmosphere, especially 
clouds. The facility includes highly instrumented ground stations 
(including radars, lidars, and a range of meteorological 
instrumentation), a mobile facility, and an aerial vehicles program.
    BER's subsurface biogeochemistry program is the only one of its 
kind in the Federal Government that focuses on basic research in the 
fate and transport of radionuclides and metals in subsurface 
environments. BER seeks to understand the role that subsurface 
biogeochemical processes play in determining the fate and transport of 
contaminants at DOE sites. Laboratory studies are coupled with field 
scale hypothesis testing that is carried out through three Integrated 
Field Research Challenges located at sites at Hanford in Washington, 
Oak Ridge in Tennessee, and Rifle, Colorado. Improved understanding and 
predictive modeling of subsurface environments will lead to novel 
approaches and strategies for remediation and stewardship of DOE sites 
that are needed to address the staggering costs of cleanup of 
contaminants. BER coordinates its environmental research with other 
federal agencies through working groups under the aegis of the White 
House National Science and Technology Council. BER also plays an active 
role in the Strategic Environmental Research and Development Program 
(SERDP) in partnership with DOD and EPA. BER supports the Environmental 
Molecular Sciences Laboratory (EMSL) to accelerate scientific discovery 
at the frontier of environmental systems science. EMSL houses an 
unparalleled suite of state-of-the-art capabilities, including a 
supercomputer and over 60 major instruments. EMSL instrumentation, with 
capabilities in nuclear magnetic resonance, mass spectroscopy, and a 
range of imaging modalities, supports major science themes of 
biogeochemistry, biological interactions and dynamics, and catalysis.

R&D Coordination in Climate and Environmental Sciences

    The knowledge and tools developed by BER research to understand 
Earth's climate system and to predict future climate and climate change 
is used by DOE's Office of Policy and International Affairs as it 
develops strategies for our nation's future energy needs and control of 
greenhouse gas emissions. BER also works with the U.S. Global Change 
Research Program in numerous stakeholder engagement activities.
    BER research on the behavior and interactions of contaminants in 
the subsurface environment provides knowledge needed by DOE's Office of 
Environmental Management (EM) to develop new strategies for stewardship 
and remediation of weapons-related contaminants at DOE sites and by 
DOE's Office of Legacy Management to develop tools to monitor the long-
term status of contaminants at cleanup sites. Mechanisms to foster R&D 
integration with EM include joint participation by BER and EM in 
planning activities, site visits and reviews, and involvement of EM 
site managers in BER Integrated Field Research Challenge projects. 
Knowledge of the subsurface environment as a complete system will also 
be useful to DOE's Office of Fossil Energy in their efforts to predict 
the long-term behavior of carbon dioxide injected underground for long-
term storage. As a direct result of BER supported basic research in 
modeling the fate and transport of contaminants, EM will initiate an 
effort in FY 2010 to develop the next generation simulation software 
needed to address the prediction, risk reduction, and decision support 
challenges faced by DOE sites.

Looking to the Future

    BER continues to leverage its scientific strengths and novel 
community resources for understanding complex biological, climate, and 
environmental systems as it looks to the future. Biology has entered a 
systems-science era with the goal to establish a predictive 
understanding of the mechanisms of cellular function and the 
interactions of biological systems with their environment and with each 
other. Vast amounts of data on the composition, physiology, and 
function of complex biological systems and their natural environments 
are emerging from new analytical technologies. Effectively exploiting 
these data requires developing a new generation of capabilities for 
analyzing, mining, and managing the information.
    To manage and effectively use this rapidly growing volume and 
diversity of data, BER is developing a systems biology knowledgebase 
that will facilitate a new level of scientific inquiry by serving as a 
central component for the integration of modeling, simulation, 
experimentation, and bioinformatic approaches. A systems biology 
knowledgebase will be a primary resource for data sharing and 
information exchange among scientists. It will not only enable 
scientists to expand, compute, and integrate data and information 
program wide, but it also will drive two classes of work: experimental 
design and modeling and simulation. Integrating data derived from 
computational predictions and modeling will increase data completeness, 
fidelity, and accuracy. These advancements in turn will greatly improve 
modeling and simulation, leading to new experimentation, analyses, and 
mechanistic insight.
    BER will continue to leverage its unique combination of user 
facilities and DOE computational resources to improve our ability to 
predict future climate with greater accuracy. BER will develop high 
resolution regional climate simulations for use in assessing regional 
and national implications of climate change on human systems and 
infrastructure, especially energy demand, production, and supply, such 
as biofuel feedstock production. This effort will also support 
interagency activities of the U.S. Global Change Research Program.

Concluding Remarks

    Thank you, Mr. Chairman, for providing this opportunity to discuss 
the Biological and Environmental Research program. This concludes my 
testimony, and I would be pleased to answer any questions to you may 
have.

                      Biography for Anna Palmisano

    Dr. Anna Palmisano is the Associate Director of Science for 
Biological and Environmental Research at the U.S. Department of Energy 
(DOE). With an annual budget of about $600 million, the Office of 
Biological and Environmental Research supports complex systems science 
to meet DOE mission needs in bioenergy, climate and the environment. 
She joined the Office of Science on March, 2008 from the U.S. 
Department of Agriculture's Cooperative State Research, Education, and 
Extension Service where she served as the Deputy Administrator for 
Competitive Programs. From 1998 to 2004, she was a Program Manager in 
the Office of Biological and Environmental Research, where she 
developed and managed a wide range of basic research programs including 
bioremediation, carbon cycling and sequestration, and genomics. Dr. 
Palmisano has also served as a Program Manager and acting Division 
Director for Biomolecular and Biosystems Sciences and Technology in the 
Office of Naval Research, and she worked as a staff microbiologist in 
the Environmental Safety Division of the Procter and Gamble Company. 
Dr. Palmisano received a B.S. degree in Microbiology from the 
University of Maryland and the M.S. and Ph.D. degrees in Biology from 
the University of Southern California. She was an Allan Hancock Fellow 
at the University of Southern California and a National Research 
Council Fellow in planetary biology at NASA-Ames Research Center. Her 
research interests have included sea ice microbial communities, stream 
ecology, microbial mats, bioremediation of organic pollutants, and 
landfill microbiology. She has led five research expeditions to 
Antarctica and published numerous papers in the field of microbial 
ecology.

    Chairman Baird. Thank you.
    Dr. Keasling.

   STATEMENT OF DR. JAY D. KEASLING, ACTING DEPUTY DIRECTOR, 
  LAWRENCE BERKELEY NATIONAL LABORATORY; CEO, JOINT BIOENERGY 
                           INSTITUTE

    Dr. Keasling. Mr. Chairman, Ranking Member Inglis, and 
distinguished Members of the Committee, thank you for the 
opportunity to testify today and for your strong support for 
science. My name is Jay Keasling. I am the CEO of the Joint 
BioEnergy Institute (JBEI), Acting Deputy Director of the 
Lawrence Berkeley National Laboratory, and a Professor of 
Biochemical Engineering at the University of California 
Berkeley.
    I am honored to testify before you today about the 
Bioenergy Research Centers (BRCs), which are advancing the 
science and technological development of cellulosic-based 
biofuels. From biofuels to cost-efficient remediation of toxic 
environments to changing the way we understand and predict 
global impacts of climate change, BER serves an irreplaceable 
role in the federal research enterprise.
    At the core of BER's strengths are its unique facilities 
and world-leading scientists. Since spearheading the Human 
Genome Project in the 1980s, BER has led advancements in modern 
systems biology that today enable the cutting edge research 
into sustainable energy alternatives.
    Upon this foundation BER established three centers to 
research and develop cellulosic-based biofuels. These are 
Bioenergy Research Centers, which today are up and running and 
making great progress. JBEI's sisters are the DOE Great Lakes 
Bioenergy Research Center (GLBRC) at the University of 
Wisconsin, led by Tim Donohue, and the DOE Bioenergy Center at 
DOE's Oak Ridge National Laboratory (ORNL), led by Martin 
Keller.
    JBEI is led by Lawrence Berkeley National Laboratory in 
partnership with Sandia Labs, UC-Berkeley, UC-Davis, Lawrence 
Livermore National Lab, and Carnegie Institution for Science. 
The mission of the BRC is maybe simply stated, to advance the 
development of cellulosic biofuels. However, the challenge is 
grand. Unlocking the energy potential in the sugars of 
cellulose requires a lot of basic research and technology 
development.
    The BRCs are ideally suited to make rapid progress toward 
this goal. Although unique in many ways, each of the BRCs has 
pulled together the best of the national laboratories, 
academics, and the private sector to build a new model for 
interdisciplinary research. Working collaboratively, the three 
BRCs have the potential to provide a better investment for the 
federal dollar than a single large center and may serve as a 
good model for similar energy research challenges.
    Let me take a moment to describe JBEI in more detail. JBEI 
is dynamically organized with scientific teams working together 
in a single location, under one roof, to enable researchers to 
share ideas and address problems at a systems-wide level. 
Researchers don't have to wait for the weekly conference call 
or the annual retreat to connect. It happens all the time.
    Organized like a start-up, JBEI is designed to be nimble 
and flexible, able to focus and refocus resources quickly, not 
the typical research model. Unproductive research avenues are 
quickly redirected. Ideas that show the most promise are 
invested in aggressively. JBEI researchers are focusing on 
developing next-generation biofuels that are compatible with 
existing infrastructure and utilize feedstocks more 
efficiently. Taking a whole-systems approach to this objective 
ensures that our research is applicable on large scales.
    Four independent areas are investigated: developing new 
bioenergy crops, enhancing biomass deconstruction, producing 
new biofuels through synthetic biology, and creating 
technologies that advance biofuel research. The magic of this 
approach is that advancements in any of the four areas can be 
shared with and employed by other areas, by other BRCs, and by 
industry.
    The exciting research includes searching for new ways, 
including novel and better enzymes, to break down 
lignocellulose, the tough matrix of fibers that hold plant 
material together. An answer may be found in microbial 
communities, in Puerto Rican rainforest soils that boast some 
of the planet's highest rates of biomass degradation. JBEI 
researchers are analyzing these organisms to find potential 
solutions.
    On the fuel production side, using synthetic biology JBEI 
researchers have re-engineered the microbes of E. Coli and 
yeast to produce advanced ``drop-in'' fuels that perform better 
than ethanol. Basically, these tiny microbes can become biofuel 
refineries.
    My personal area of research is in synthetic biology. In 
addition to biofuels, this exciting field offers great promise 
for bio-based chemical and medical products. One of the most 
important applications of synthetic biology has been re-
engineering organisms to produce the anti-malarial drug, 
artemisinin. There are currently 300 to 500 million cases of 
malaria at any one time with one to three million people dying 
of the disease each year and 90 percent are children under the 
age of five. And while quinine-based drugs are no longer 
effective, plant-derived artemisinin combination therapies are 
highly effective but cost prohibitive for the world.
    To decrease its cost we engineered a microbe to produce a 
precursor to the drug by transferring the genes from plants to 
the microorganism. The process has been licensed by Sanofi-
Aventis, which will scale the process and produce the drug 
within the next two years, providing it ``at cost'' to the 
developing world.
    Luckily the precursor to the chemical artemisinin is a 
hydrocarbon, a fundamental building block of fuel. We are now 
re-engineering those same microbes to produce drop-in biofuels. 
The artemisinin project required $25 million in funding and 150 
person-years to complete in part because the engineering of 
biology is so incredibly time consuming. Through synthetic 
biology we hope to make the engineering of biology more 
predictable and easier, thereby reducing its cost to develop 
biofuels and other useful products, from chemicals to medicine 
to consumer and commercial products.
    Limiting BER research to just fuels would be a mistake and 
a lost opportunity. Indeed, BER can take an important and 
leading role in the development of this transformative field of 
synthetic biology.
    Thank you again for holding this important hearing and for 
inviting me to participate, and I would be happy to answer any 
questions.
    [The prepared statement of Dr. Keasling follows:]

                 Prepared Statement of Jay D. Keasling

Introduction

    Mr. Chairman, Ranking Member Inglis and distinguished Members of 
the Committee, thank you for the opportunity to testify at this 
important hearing. And, thank you for your strong and consistent 
support for science and the innovation process. My name is Jay Keasling 
and I am the CEO of the Joint BioEnergy Institute and the Acting Deputy 
Director of the Lawrence Berkeley National Laboratory (Berkeley Lab), a 
Department of Energy (DOE) Office of Science laboratory operated by the 
University of California. I am also a professor at the University of 
California, Berkeley, in chemical and biological engineering.
    The Joint BioEnergy Institute (JBEI) is a scientific partnership 
led by Berkeley Lab and including the Sandia National Laboratories, the 
University of California campuses of Berkeley and Davis, the Carnegie 
Institution for Science and the Lawrence Livermore National Laboratory. 
JBEI's primary scientific mission is to advance the development of the 
next generation of biofuels--liquid fuels derived from the solar energy 
stored in plant biomass. JBEI is one of three DOE Bioenergy Research 
Centers (BRCs) funded by the Office of Biological and Environmental 
Research (BER).
    Lawrence Berkeley National Laboratory is a world-leading multi-
disciplinary science laboratory founded in 1931 by Nobel Laureate 
Ernest Orlando Lawrence. Eleven scientists associated with Berkeley Lab 
have won the Nobel Prize and 55 Nobel Laureates either trained at the 
Lab or had significant collaborations with the Lab. It has a very 
distinguished history in several fields of science including physics, 
chemistry, biology, computing, energy efficiency and Earth sciences, 
among others.
    Today, Berkeley Lab is mobilizing its strong bench of scientific 
and engineering talent to lead the scientific advancement and 
technological development of solutions to the energy and environmental 
challenges facing our planet. Much of this good work is funded by the 
Office of Biological and Environmental Research within the DOE's Office 
of Science. I am delighted to be here with you today to share 
information about this productive and good use of federal research 
dollars, and to share a few thoughts about BER, the BioEnergy Research 
Centers and more generally on biology-based opportunities in energy and 
other fields.

Overview of Testimony

    The energy and environmental demands facing our nation and the 
world are daunting and require a broad and balanced mix of solutions--
from advancements in science and technology to bold changes in policy 
and human behavior. BER is aggressively advancing the scientific 
knowledge and the technological know-how needed to address these grand 
challenges with its unique cadre of experts and facilities. From the 
development of biofuels, to cost-efficient remediation of toxic 
environments, to changing the way we understand and predict the global 
impacts of climate change, BER serves a crucial and irreplaceable role 
in the federal research enterprise.
    Today I want to draw your attention to four key areas:

        1.  BER's arsenal of research resources, such as the BRCs and 
        the Joint Genome Institute, are unparalleled in the Nation's 
        science and technology complex and are hotbeds of potentially 
        game-changing energy and environmental research.

        2.  The BRCs' development of cellulosic biofuels, especially 
        next generation, environmentally benign, drop-in biofuels, will 
        contribute significantly to new technological approaches to 
        transportation fuels.

        3.  Synthetic Biology, a transformational approach to 
        biological energy and medical challenges, holds great promise 
        for the design and development of sustainable, safe, bio-based 
        products.

        4.  In order to make rapid and meaningful progress, DOE's basic 
        and applied energy research and development activities must 
        collaborate closely and strategically. The BRCs are an 
        excellent model for building stronger alliances between these 
        two areas.

BER's Arsenal of Resources

    Championing large scale and team-centric biology-based approaches 
to big problems have propelled BER to a world-leadership position in 
the biological sciences and in the development of biology-based 
technologies. Since spearheading the Human Genome Project in 1986, BER 
has led the development of modern genomics-based systems biology that 
today is enabling cutting-edge research into sustainable energy 
alternatives and global climate change solutions.
    At the core of BER's strength are its unique facilities and world 
leading scientists. From the three BRCs to the Joint Genome Institute, 
BER is providing American research institutions and companies the 
intellectual horsepower and the specialized tools and equipment needed 
to make progress quickly. Also, BER is careful to ensure that it and 
its facilities utilize and leverage one another as well as other DOE 
assets to support its mission.
    A case in point: each of the BRCs has access to the tremendous 
genomic research capabilities of the Joint Genome Institute (JGI). JGI 
was created in 1997 to unite the expertise and resources in DNA 
sequencing, informatics, and technology development pioneered at the 
DOE genome centers at Berkeley Lab, Lawrence Livermore National 
Laboratory, and Los Alamos National Laboratory. By combining these 
efforts, the significant economies of scale achieved enabled the JGI to 
be the first to publish the sequence analysis of the target chromosomes 
5, 16, and 19, in the journal Nature. Following this accomplishment, 
the DOE JGI went on to advance basic science by sequencing scores of 
microbial species as well as several model organisms and provided this 
information freely to public databases.
    Building on its success, in 2004 the BER established JGI as a 
national user facility. The vast majority of JGI sequencing is 
conducted under the auspices of the Community Sequencing Program, 
surveying the biosphere to characterize organisms relevant to the DOE 
science mission areas of bioenergy, global carbon cycling, and 
biogeochemistry. Today, JGI's largest customers are the BRCs, which 
utilize the JGI's skills and tools to sequence the genomes of 
prospective biofuel feedstocks, such as the poplar tree and the grass 
arabidopsis, or of potentially highly effective organisms for 
cellulosic deconstruction, such as those in the hindgut of termites or 
on the rainforest floor.
    Additionally, JGI works with institutions and companies from around 
the country, including from the Chairman's and Ranking Member's home 
states. These projects include:

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    BER's leadership role in biological sciences and technology 
development continued with its request for proposals in the summer of 
2006 to establish three centers to research and develop cellulosic 
derived ethanol. Inspired by a joint BER-EERE workshop, the report, 
``Breaking the Biological Barriers to Cellulosic Ethanol: A Joint 
Research Agenda,'' provided direction for a program that would more 
directly effect large-scale solutions to our energy and environmental 
challenges. The workshop, in which I participated along with my UC-
Berkeley colleague Chris Somerville (Executive Director of the $500 
million, BP funded, Energy Biosciences Institute), provided a cohesive 
research strategy that could best be realized through the creation of 
dedicated, collaborative scientific research centers.
    This committee and the Congress also played a critical role in the 
establishment of the BRCs. From the biofuel provisions in the Energy 
Policy Act of 2005, research agencies' budget authorizations in the 
America COMPETES Act, and the appropriations that made the Centers 
possible, you and your colleagues have demonstrated your leadership and 
your understanding that new approaches are needed to attack these big 
problems.
    All of the BRCs are up and running and are making great progress. 
As an addendum to this testimony I have attached the recently updated 
``Bioenergy Research Centers Overview'' (07/09) which includes 
information about the three centers, our progress and successes. JBEI's 
sister centers are profiled below.

         The DOE Great Lakes Bioenergy Research Center is led by the 
        University of Wisconsin in Madison, Wisconsin, in close 
        collaboration with Michigan State University in East Lansing, 
        Michigan. The Center Director is Timothy Donohue, and other 
        collaborators include: DOE's Pacific Northwest National 
        Laboratory in Richland, Washington; Lucigen Corporation in 
        Middleton, Wisconsin; University of Florida in Gainesville, 
        Florida; DOE's Oak Ridge National Laboratory in Oak Ridge, 
        Tennessee; Illinois State University in Normal, Illinois; and 
        Iowa State University in Ames, Iowa.

         The DOE BioEnergy Science Center is led by the DOE's Oak Ridge 
        National Laboratory in Oak Ridge, Tennessee. The Center 
        Director is Martin Keller, and collaborators include: Georgia 
        Institute of Technology in Atlanta, Georgia; DOE's National 
        Renewable Energy Laboratory in Golden, Colorado; University of 
        Georgia in Athens, Georgia; Dartmouth College in Hanover, New 
        Hampshire; and the University of Tennessee, in Knoxville, 
        Tennessee.

    Each of the BRCs has pulled together the best of the national 
laboratories, academics, and the private sector to build a new model 
for interdisciplinary research. Working collaboratively, the three BRCs 
have the potential to provide a better investment for the federal 
dollar than a single large center. As has been pointed out by many, the 
days of Bell Labs and Xerox Labs are behind us. Therefore, it is 
critical that the Federal Government continue to invest in high payoff 
research that will bring transformative technology to the marketplace, 
maintain the leadership position of the United States in technology 
development and support the creation of new economic sectors. As 
example, let me describe JBEI to you in more detail.
    As noted earlier, the Joint BioEnergy Institute (JBEI) is a six-
institution partnership led by Berkeley Lab and based in the San 
Francisco Bay Area in a new research facility in Emeryville, 
California, within commuting distance of its partner institutions. JBEI 
is designed to be an engine of ingenuity, dynamically organized with 
all the scientific teams working together in a single location, under 
one roof, to enable researchers to share ideas and address cellulosic 
biomass problems at a systems-wide level. Within 60 miles of JBEI are 
some of the world's foremost expertise and facilities for energy, plant 
biology, systems and synthetic biology, imaging, nanoscience, and 
computation, plus the highest concentration of national laboratories 
and world-class research universities in the Nation.
    Organized like a start-up company (for example, my title is CEO), 
JBEI is designed to be nimble and flexible, able to focus and refocus 
resources quickly, efficiently and effectively--not the typical mode 
for basic scientific research. This organizational structure is 
critical to JBEI's success. For example, research avenues that are 
unproductive as related to meeting biofuels development targets may be 
quickly redirected. Ideas that show the most promise are invested in 
aggressively and resources are allocated to ensure rapid progress.

Biofuels: The Next Generation

    Although biofuels have been in use, and in some stage of 
development for decades, the Federal Government and industry have not 
invested adequately in the basic science and technology development 
needed to advance more useful and sustainable forms. Ethanol derived 
from corn starch and other starch based biomass is a good place to 
start and have demonstrated the viability of bio-based fuels as useful 
and effective alternatives to fossil fuel. However, ethanol, especially 
when derived from starches, presents problems that must be overcome.
    From the limitations of using existing transportation 
infrastructure, such as our inventory of automobiles and fuel 
distribution networks, to the inefficient utilization of the feedstock, 
starch derived ethanol is ultimately not the best way to address our 
energy security or global climate change challenges. New ways must be 
developed, and BER's investment in the BRCs is one critical path that 
holds great promise.
    At JBEI, we are focusing on developing ``next generation'' biofuels 
that are compatible with existing infrastructure and utilize feedstock 
more efficiently. To do this we are taking a whole-systems approach to 
ensure that our research is applicable on large scales. The research 
revolves around four interdependent efforts that focus on (1) 
developing new bioenergy crops, (2) enhancing biomass deconstruction, 
(3) producing new biofuels through synthetic biology, and (4) creating 
technologies that advance biofuel research. The magic of this approach, 
as well as similar approaches at the other BRCs, is that advancements 
and discoveries in any of the four areas can be shared with and 
employed by each other, and by industry. In other words, commercially 
applicable developments made at the BRCs can speed improvement in 
various components of biofuels production before game changing 
discoveries are made and perfected.
    JBEI researchers are engineering microbes and enzymes to process 
the complex sugars of lignocellulosic biomass into biofuels that can 
directly replace gasoline. However, the process and the research begin 
much earlier than the conversion of sugars into fuels. First, we must 
develop better biomass and better technologies for deconstructing the 
tough cellulosic bonds. Below are three examples of work through which 
JBEI researchers will improve the fermentable content of biomass and 
transform lignin into a source of valuable new and sustainable fuels.
    The conversion of cellulosic biomass to biofuels begins with 
pretreatment--the use of chemical or physical treatments to loosen the 
tight linkages among cell-wall components, making the biomass easier to 
degrade. A new development in pretreatment research is the use of ionic 
liquids--salts that are liquid rather than crystalline near room 
temperature. Ionic liquids can dissolve both lignin and cellulose; 
their use, however, has required large amounts of anti-solvent to 
recover the dissolved cellulose. JBEI researchers have studied solvent 
extraction technology based on the chemical affinity of boronates to 
complex sugars and determined optimal pH and temperature conditions for 
recovering sugars from the ionic liquid-biomass liquor.
    To find other ways, including new and better enzymes, to break down 
lignocellulose, JBEI researchers have analyzed microbial communities in 
Puerto Rican rainforest soils that boast some of the planet's highest 
rates of biomass degradation. Scientists used the Phylochip, a credit 
card-sized microarray developed at Berkeley Lab that can quickly detect 
the presence of up to 9,000 microbial species in samples. Using bags of 
switchgrass as ``microbe traps,'' the researchers conducted a census of 
these soil microbes to identify the most efficient biomass-degrading 
bacteria and fungi.
    Through re-engineering microbes, JBEI researchers have used 
synthetic biology and metabolic engineering techniques in Escherichia 
coli and Saccharomyces cerevisiae (yeast) to produce advanced, ``drop-
in,'' fuels that perform better than ethanol. The scientists redirected 
central metabolic, fatty acid, and cholesterol biosynthetic pathways to 
produce candidate gasoline, diesel, and jet fuel molecules. JBEI also 
has developed a new metabolic pathway that potentially could produce 
both advanced fuels and other molecules (e.g., polymer monomers) that 
might otherwise be produced from petroleum, paving the way to replace a 
significant portion of petroleum-based products with sugar-based 
products. I will discuss this in more depth later in the testimony.
    Close collaborations with industry is critical to the whole systems 
approach and to the process of getting discoveries and technological 
improvements to the market. At JBEI, we collaborate with companies in a 
number of ways to achieve this goal. We have an Industry Advisory 
Committee, comprised of leading companies in a number of sectors that 
relate to biofuels: agriculture, biotechnology, chemicals, oil and gas, 
automobile and aerospace. Currently this committee is comprised of 
representatives from the following companies: Arborgen, Boeing, BP 
America, Chevron, DuPont, GM, Mendel Biotechnology, Plum Creek, and 
StatoilHydro. These companies meet annually for a review of JBEI's 
research and provide feedback from an industry perspective. They are 
able to identify challenges and opportunities that are difficult to 
perceive from the lab bench, but critical to address in the 
marketplace.
    We also have an Industry Partnership Program though which companies 
can collaborate with JBEI in a variety of ways to best meet their 
needs. JBEI partners with companies to expand the scope of its biofuels 
research and take JBEI's fundamental discoveries the next step in 
development by focusing on an applied research problem in tandem with a 
company. In one example, JBEI is planning to work with a company on 
testing the compatibility and efficacy of our inventions with their 
processes. In another, JBEI has leveraged industry funding from Boeing 
and StatoilHydro to develop an economic model of a cellulosic 
biorefinery that will identify those aspects of the process that would 
most benefit from cost reduction.
    JBEI ensures that its discoveries offer value to industry by 
patenting those inventions that we expect to be commercially valuable. 
Thus far, JBEI has produced 30 inventions and copyrighted or filed a 
patent application on 21 of them. JBEI actively promotes these 
inventions to the public and the target markets, not only to ensure 
that Fairness of Opportunity is met, but to find the most qualified 
licensee in each case.
    Although we are making significant progress, I do not want to leave 
here today having given you unrealistic expectations. I estimate that 
whole-system, cellulosic to drop-in biofuels production on a mass scale 
is still at least a decade away. However, as stated before, we and our 
colleagues at the other BRCs are rapidly developing solutions for 
various aspects of the biofuels enterprise that may come to market much 
quicker. Synthetic biology offers more immediate opportunities.

The Promise of Synthetic Biology

    As an example, I would like to describe my personal research in 
synthetic biology and how this exciting field offers great promise, not 
just for the development of game-changing biofuels, but for other bio-
based chemical, consumer and medical products.
    I started my career at Berkeley in the early nineties when it was 
very difficult to engineer biology. I began with the idea that one 
could engineer microorganisms to be chemical factories to produce 
nearly any important chemical from sugar. Unfortunately, there were 
very few tools to engineer microorganisms to produce chemicals. So, we 
began by developing tools to control the expression of genes that had 
been transferred to cells so that we could accurately control the 
production of the chemical of interest. There was really no name for 
what we were doing, but now it is referred to as synthetic biology.
    At the time, I was somewhat ostracized by my colleagues for 
focusing on the development of tools for engineering biology--even 
though the development of tools is at the heart of every engineering 
field. As an example, Gordon Moore famously recommended that Intel 
spend at least 10 percent of its budget on the development of tools. 
Obviously, tools help to move science forward.
    One of our most important and well-known applications of these 
tools has been engineering microorganisms to produce the anti-malarial 
drug artemisinin. There are 300-500 million cases of malaria at any one 
time, with one to three million people dying from the disease each 
year, 90 percent are children under the age of five. While the quinine-
based drugs that have been so widely used to treat malaria are no 
longer effective, artemisinin combination therapies are highly 
effective in treating malaria.
    Because the drug is extracted from a plant that naturally produces 
it in rather low yield, artemisinin combination therapies are too 
expensive for most people in the developing world to afford. To 
increase the availability of the drug and decrease its cost, we 
engineered a microorganism to produce a precursor to the drug by 
transferring the genes responsible for making the drug from the plant 
to the microorganism. Through generous funding from the Bill & Melinda 
Gates Foundation, we were able to complete the science in three years. 
That science was greatly enabled by our previous work on developing 
biological tools. The engineered microorganism was further optimized 
and a production process developed by Amyris Biotechnologies. The 
microbial production process has been licensed by Sanofi-Aventis, which 
will scale the process and produce the drug within the next two years.
    Artemisinin is just a start. Just as synthetic biology is being 
applied to develop new fuels, I believe that similar processes and 
techniques can also be applied to the production of many other 
products--from chemicals and medicine to consumer and commercial 
products. Today, companies like Amyris and DuPont are leading the way 
in the development of more sustainable, bio-based products that 
traditionally have utilized fossil fuels. Investing in cleaner, non-
petroleum based manufacturing methods for non-fuel products should also 
be a significant focus of our energy and global climate change federal 
research agenda. Limiting this research to just fuels would be a 
mistake and a lost opportunity.

Collaborating for Success

    I wanted to bring to the Committee's attention an important issue 
that, if addressed effectively, could greatly improve the Department's 
ability to develop solutions to great problems and help to move them to 
the marketplace. Energy research and the development of energy and 
environmental technologies at DOE demonstrate an unfortunate disconnect 
between the basic sciences and applied technology development at DOE.
    Instead of dwelling on the problem, however, I prefer to 
concentrate on the huge upside presented by closer collaboration. If 
the Office of Science and DOE's applied research and development 
programs were more strategically and organizationally aligned, the 
progress that could be made would be astounding. Just as JBEI and the 
other BRCs are taking a whole-systems approach, so must the Office of 
Science and the DOE technology offices work together to establish 
objectives, to coordinate activities and to jointly invest in programs 
and projects. The BRCs provide a great opportunity for this type of 
collaboration.
    There are signals that this is occurring. A recent instance is the 
announcement by Secretary Chu that EERE's Office of Biomass will fund a 
biofuels pilot plant for use by the Office of Science/BER-funded BRCs 
and other users across the Nation. The pilot plant would translate the 
technologies created by the Joint BioEnergy Institute (JBEI) and its 
sister BRCs beyond laboratory scale to facilitate their 
commercialization. The facility will have capabilities for pilot scale 
pretreatment of biomass, production of enzymes for biomass 
deconstruction (cellulases, hemicellulases, and lignases), and 
fermentation capacity for advanced biofuels production and purification 
in quantities sufficient for engine testing at partner institutions.
    Finally, I would like to share one last example of a potentially 
dynamic and productive collaborative effort. More foundational research 
is needed to develop the underpinning technologies in synthetic biology 
(SC), and to apply synthetic biology to test beds like microbial 
production of transportation fuels and specialty chemicals (EERE). An 
example of this foundational research is that conducted at the National 
Science Foundation-funded Synthetic Biology Engineering Research Center 
(SynBERC), a collaboration of the University of California campuses at 
Berkeley and San Francisco, Stanford University, Harvard University, 
and the Massachusetts Institute of Technology. BER could play large 
role in this foundational research, which would complement its work at 
the Joint Genome Institute, and advance its mission-focused research in 
many fields. Specifically, the funding of a biological fabrication 
facility dedicated to the construction and characterization of 
biological components would increase the speed and reduce the costs of 
the development of microorganisms that produce biofuels, commodity and 
specialty chemicals, and pharmaceuticals.

Conclusion

    I hope that my testimony has illustrated for you the remarkable 
role that BER has and will continue to play in our nation's research 
and innovation enterprise. Your actions and the support of the 
Congress, however, will determine whether these efforts described today 
are ultimately successful. This is a marathon, not a sprint, and 
requires consistent and continuous nourishing and care. Additionally, 
the Department has a huge burden to shepherd their programs in a 
coordinated, strategic and efficient manner. To meet the monumental 
tasks before us, just in the area of advanced biofuels, will require 
more than what BER can do alone--all of DOE's resources, in 
coordination and collaboration with industry and other federal 
agencies, must be brought to bear.
    Finally, thank you, again, for holding this important hearing and 
for inviting me to participate. Please let me know if I may ever be of 
any assistance.

                     Biography for Jay D. Keasling

    Jay Keasling was named as Berkeley Lab's Acting Deputy Director in 
March, 2009. While serving in this interim position he continues his 
duties as the Chief Executive Officer of the U.S. Department of 
Energy's Joint BioEnergy Institute and as a professor of chemical and 
bioengineering at the University of California-Berkeley. From April 
2005 to June 2009, he served as Director of Berkeley Lab's Physical 
Biosciences Division. He joined that division in 1992 and in 2002 
became the first head of its Synthetic Biology Department. In addition, 
he directs UC-Berkeley's Synthetic Biology Engineering Research Center 
and is also a founder of Amyris Biotechnologies, a leading firm in the 
development of renewable fuels and chemicals.
    Keasling is one of the foremost authorities in the field of 
synthetic biology research. His work has focused on engineering 
microorganisms for the environmentally friendly synthesis of small 
molecules or degradation of environmental contaminants. He led the 
breakthrough research in which bacteria and yeast were engineered to 
perform most of the chemistry needed to make artemisinin, the most 
powerful anti-malaria drug in use today. In 2004, the Bill and Melinda 
Gates Foundation awarded a $42.6 million grant to further develop the 
technology which is now nearing commercialization. For this research, 
Keasling received the 2009 Biotech Humanitarian Award from the 
Biotechnology Industry Organization. Keasling is now applying his 
synthetic biology techniques towards the production of advanced carbon-
neutral biofuels that can replace gasoline on a gallon-for-gallon 
basis.
    Keasling grew up on his family's corn and soybean farm in Harvard, 
Nebraska, then earned his Bachelor's degree from the University of 
Nebraska, and his graduate degrees in chemical engineering from the 
University of Michigan. He is the recipient of the American Institute 
of Chemical Engineers Professional Progress Award (2007) and Scientist 
of the Year, Discovery Magazine (2006). He is a Fellow of the American 
Academy for Microbiology (2007) and the American Institute of Medical 
and Biological Engineering (2000). In 2006, he was also cited by 
Newsweek as one of the country's 10 most esteemed biologists.

    Chairman Baird. Dr. Campbell.

   STATEMENT OF DR. ALLISON A. CAMPBELL, DIRECTOR, WR WILEY 
ENVIRONMENTAL MOLECULAR SCIENCES LABORATORY, PACIFIC NORTHWEST 
                      NATIONAL LABORATORY

    Dr. Campbell. Thank you, Chairman Baird, Ranking Member 
Inglis, and Members of the Committee for the opportunity to 
appear before you today. I am the Director of Wiley 
Environmental Molecular Sciences Laboratory, a BER-funded 
national scientific user facility.
    EMSL's mission is to provide researchers worldwide with 
integrated computational and experimental capabilities to 
advance scientific discovery and provide technological 
innovation in the environmental molecular sciences in support 
of DOE and the Nation's needs.
    It is unique in that it offers users under one roof a 
problem-solving environment that integrates these capabilities 
with staff expertise that enable the highest impact science 
possible. Capabilities include high-performance computing 
tools, ultrahigh resolution microscopes, and world-leading 
magnetic resonance spectrometers. Think of it as an MRI for 
molecules. And mass spectrometers.
    Within the Office of Science BER supports, sponsors, and 
advances world-leading biological and environmental research 
programs and operates scientific user facilities that drive 
fundamental scientific discoveries to meet its mission 
priorities. In addition to DOE's Office of Science, the 
National Science Foundation and the National Institutes of 
Health also fund programs in biology and medical research.
    Many scientists from--funded by these three agencies 
perform their research at DOE-sponsored National Scientific 
User Facilities such as EMSL. A few examples of highlights in 
the biological arena include researchers from Washington 
University at St. Louis, who recently discovered a novel 
cluster of genes that include proteins essential for 
photosynthesis. This is the process by which plants convert 
light into energy. Understanding this process and how nature 
converts light into energy is a reaction important in the 
development of new clean fuels.
    Another example is researchers from Oregon State University 
and the University of California, as well as at PNNL, for the 
first time measured protein complements of microbial 
communities in the Sargasso Sea. Insights afforded by this 
research is important because bacteria such as these heavily 
influenced biogeochemical cycles affecting the concentrations 
of elements such as carbon and therefore, the greenhouse gas 
carbon dioxide in the Earth's air, water, and soil.
    Finally, an international team from the Erasmus Research 
Center at Rotterdam have identified 55 different proteins that 
vary in amounts between patients who were responsive to a 
certain breast cancer therapy and those who were not. This 
discovery can potentially lead to new biomarkers for the 
efficacy of new therapies and drugs.
    BER continues to make significant investments in EMSL to 
keep the user facility unique and state-of-the-art, such as the 
recent investment of $60 million of Recovery Act funds to 
enable our planned investments and recapitalization.
    We are also collaborating with the National High-Field 
Magnet Laboratory at Florida State University, as well as an 
institute in the Netherlands to develop the world's highest-
field mass spectrometer. This high-fuel magnet would make what 
today is impossible, possible, through increases in dynamic 
range, sensitivity, and resolution. New knowledge garnered from 
this instrument could enable biofuel development and foster 
better-informed technology and policy decisions affecting 
bioremediation, waste processing, energy production, and 
associated health impacts.
    Of course, EMSL would not exist without our user base. 
During our 12 years of operation we have hosted more than 
10,000 scientists from all 50 states, including all the states 
represented by this committee, and over 60 countries. Nearly 
half of our users come from university systems, 40 percent come 
from other national labs and other government labs, and a small 
portion come from the industrial sector.
    Nearly 45 percent of EMSL users are funded by DOE, with 
one-third of those being funded by the Office of Biological and 
Environmental Research, and another 25 percent are funded by 
NIH and NSF, the remaining balance being funded by various 
associated agencies across the government sector. User 
productivity has been excellent. Over the last two years EMSL-
based research and discoveries have been the subject of more 
than 1,000 peer review papers and journals and featured on more 
than 30 journal covers.
    To summarize, in partnership with BER, EMSL will continue 
to provide these world-class scientific resources and 
scientific expertise to the scientific community worldwide, 
with integrated capabilities to achieve the highest impact 
science possible in support of the needs of the DOE and the 
Nation.
    Thank you, Mr. Chairman, for the opportunity to discuss 
EMSL and DOE's biological programs with you. As we both call 
Washington our home, I would like to invite you at your 
convenience out to the Laboratory to take a look yourself, and 
I would be pleased to answer any questions the Committee might 
have.
    [The prepared statement of Dr. Campbell follows:]

               Prepared Statement of Allison A. Campbell

    Thank you, Chairman Baird, Ranking Member Inglis, and Members of 
the Committee for the opportunity to appear before you to provide 
testimony on ``Biological Research for Energy and Medical Applications 
at the Department of Energy Office of Science.'' In 1990, I became 
affiliated with the Department of Energy's (DOE's) national laboratory 
system as a post-doctoral chemist at the Pacific Northwest National 
Laboratory (PNNL) in Richland, Washington. Since that time, I have 
spent nearly 20 years at PNNL as a senior research scientist, a 
technical group leader and, as of 2000, the Associate Director of 
EMSL--the Environmental Molecular Sciences Laboratory. In May 2005, I 
was named EMSL Director.
    Today, my testimony will focus on three objectives: (1) introducing 
you to EMSL, its mission, its users, and the science it enables; (2) 
articulating the role of EMSL in supporting the biological research 
efforts of DOE's Office of Biological and Environmental Research (BER) 
and other agencies; and (3) describing future opportunities that will 
accelerate scientific discovery at EMSL.

History of EMSL

    Located at PNNL, EMSL is a BER-funded national scientific user 
facility. The concept of EMSL began in 1986, when then-PNNL Director 
Dr. William R. Wiley and his senior managers met to discuss how PNNL 
could respond to the scientific challenges that faced DOE. Dr. Wiley 
and his senior leadership team, knowing of the tremendous advances made 
in the ability of the research community to characterize, manipulate, 
and create molecules, believed that molecular-level research would be 
instrumental to solving significant challenges in the environment, 
energy, and health arenas. The resulting concept was a center for 
molecular science research that would bring together experimentalists 
from the physical and life sciences and theoreticians with expertise in 
computer modeling of molecular processes.
    Dr. Wiley's vision was realized in July 1994 when construction 
began on the William R. Wiley Environmental Molecular Sciences 
Laboratory, as it came to be called, and the building was dedicated in 
October 1996, shortly after he passed away unexpectedly. The doors of 
EMSL opened to the user community on October 1, 1997.

The Uniqueness of EMSL

    Today, Dr. Wiley's vision continues to be embodied in EMSL's 
mission to provide researchers worldwide with integrated experimental 
and computational resources for scientific discovery and technological 
innovation in the environmental molecular sciences to support the needs 
of DOE and the Nation. EMSL is unique in that if offers users a 
problem-solving environment that integrates scientific expertise with 
transformational capabilities to enable the highest-impact scientific 
results possible. These capabilities include, under one roof, high-
performance computing tools that advance molecular science in areas 
such as aerosol formation, bioremediation, catalysis, climate change, 
and subsurface science; high-resolution microscopes that enable 
scientists to visualize molecules and molecular processes; and world-
leading nuclear magnetic resonance (NMR) and mass spectrometry 
capabilities that allow researchers to characterize complex systems 
such as microbial communities.
    Many of these capabilities are built in house, another feature that 
sets EMSL apart from other facilities. For example, the EMSL-developed 
NWChem, DOE's premier computational chemistry software, runs on systems 
such as EMSL's high-performance, third-generation supercomputer, 
Chinook--an HP system that can reach 163 teraflops in peak performance. 
Researchers apply NWChem to run highly scalable, parallel computations 
to gain understanding of large, challenging scientific problems such as 
the biological activity of reactive sites in proteins, providing 
insight into how they carry out critical functions such as DNA repair. 
Another example is EMSL's STORM--an optical microscope that allows 
users to observe biological systems in natural environments at electron 
microscopy resolution, without altering the material from it natural 
state as required by electron microscopy.
    However, world-class instruments are only one component of a world-
class facility. The most important aspect of EMSL is the cadre of 
leading scientific and technical experts. EMSL scientists have been 
recognized with the Presidential Early Career Award for Scientist and 
Engineers, and they have been elected as Fellows in a variety of 
professional societies such as the American Chemical Society and the 
American Association for the Advancement of Science. They serve as 
editors on scientific journals, have patented several new technologies, 
and publish their work in leading scientific journals. Our researchers 
have dedicated their careers to building new and innovative 
technologies, pushing the limits of scientific discovery and advancing 
the science of our users.
    These capabilities and scientific expertise are focused to support 
DOE's missions in energy and environment and address complex challenges 
within EMSL's three science theme areas: (1) Biological Interactions 
and Dynamics, (2) Geochemistry/Biogeochemistry and Subsurface Science, 
and (3) Science of Interfacial Phenomena.

Biology Research within BER and other Federal Agencies

    DOE's Office of Science is the single largest supporter of basic 
research in the physical sciences in the United States, providing more 
than 40 percent of total funding for this vital area of national 
importance. Within the Office of Science, BER sponsors, supports, and 
advances world-class biological and environmental research programs and 
scientific user facilities to drive fundamental science discoveries and 
to meet its mission priorities to:

        <bullet>  Develop biofuels as a major secure national energy 
        resource

        <bullet>  Understand relationships between climate change and 
        the Earth's ecosystems, and assess options for carbon 
        sequestration

        <bullet>  Predict fate and transport of subsurface contaminants

        <bullet>  Develop new tools to explore the interface of 
        biological and physical sciences.

    In addition to DOE's Office of Science, the National Science 
Foundation (NSF) and National Institutes of Health (NIH) fund research 
programs in the biological and health sciences. Scientists funded by 
these programs advance their research with the help of DOE's national 
scientific user facilities, such as EMSL. EMSL is particularly well 
positioned to foster discovery in the biological sciences for these 
researchers because of its strong focus on providing transformational 
capabilities. Such capabilities at EMSL offer researchers new 
approaches to view chemical and biological systems--from single 
molecules or organisms to complex structures or communities, from 
static to dynamic processes, and from ex-situ systems to in-situ 
observation. These capabilities and EMSL's world-leading scientists are 
helping researchers unravel complex biological problems such as the 
following.

        <bullet>  Understanding the light path to bioenergy. Using 
        EMSL's world-leading high-throughput proteomics resources, a 
        team led by researchers from Washington University in St. Louis 
        discovered a novel cluster of genes that encode proteins 
        essential for photosynthesis. This discovery is providing 
        insight into how nature converts light into energy, a reaction 
        of interest because future clean energy sources will rely 
        heavily on this conversion.

        <bullet>  Understanding how oceanic microbial communities are 
        optimized for nutrient uptake. EMSL's world-leading proteomics 
        resources were critical to pioneering research in which EMSL 
        users from Oregon State University, the University of 
        California and PNNL, for the first time, measured protein 
        expression in microbial communities from the Sargasso Sea. The 
        insight afforded by this research into oceanic microbial 
        communities is important because such bacteria heavily 
        influence biogeochemical cycles, affecting the concentrations 
        of elements such as carbon--and therefore the greenhouse gas, 
        carbon dioxide--in the Earth's air, water, and soil.

        <bullet>  Fundamental studies give insight into ocular 
        function. The eyes house the elegant machinery that responds to 
        light and triggers the neural impulses that allow us to 
        visualize our surroundings. Researchers from the University of 
        Washington have used EMSL's NMR spectrometers and sophisticated 
        probe technologies to gain new knowledge about the complex 
        visual system at the molecular level. The team is the first to 
        determine a high-resolution structure of a photoreceptor domain 
        that affects how quickly the eye can see. Studies such as this 
        one are the first steps toward a fundamental understanding of 
        the how the visual system works and how to fix it when it goes 
        awry.

        <bullet>  Identifying newly found proteins that may indicate if 
        breast cancer cells will resist treatment. Researchers from 
        Erasmus Medical Center Rotterdam combined EMSL's mass 
        spectrometry capabilities with EMSL expertise in proteomics to 
        identify 55 proteins that vary in abundance between patients 
        responsive to the breast cancer treatment tamoxifen and those 
        who are not, indicating that a biomarker for resistance to this 
        drug might exist.

        <bullet>  Developing new tools to aid in understanding the 
        physiology of live cells. A research team from PNNL, The J. 
        Craig Venter Institute, and Merck Co., Inc., used EMSL 
        resources to develop a first-of-its-kind MRI biochamber that 
        provides accurate metabolic information for live cells 
        maintained in a controlled growth environment. This new 
        capability is helping researchers understand the processes 
        employed by microorganisms under different conditions, an 
        important step in using these microbes to manufacture biofuels 
        and other valuable chemicals from waste.

        <bullet>  Investigating how bacterium immobilizes subsurface 
        contaminants. An international team used EMSL's surface science 
        and imaging capabilities to determine the location, with 
        nanoscale resolution, of two proteins on the surface of the 
        bacteria, Shewanella oneidensis. These proteins help Shewanella 
        exchange electrons with minerals in the subsurface, which can 
        affect the migration of environmental contaminants. 
        Understanding the role of these proteins in electron exchange 
        may lead to enhanced bioremediation methods. The team was 
        comprised of participants from The Ohio State University; PNNL; 
        Corning Incorporated, Johannes Kepler University of Linz, 
        Austria; Ecole Polytechnique Federale de Lausanne, Switzerland; 
        and Umea University, Sweden.

Future Opportunities

    BER continues to make significant investments in EMSL to keep the 
user facility unique and state of the art. Perhaps the greatest vote of 
confidence in EMSL and our ability to serve the user community is BER's 
recent investment of $60 million in American Recovery and Reinvestment 
Act funds, which will accelerate planned recapitalization activities 
and condense the effort from more than five years to 18 months. This 
investment represents a ``game changer'' for EMSL in that it allows us 
to push forward critical, cutting-edge capabilities for in situ 
chemical and biological imaging, ultra-high resolution microscopy, 
near-real-time integration of theory and experiment, and 
characterization of molecular dynamic processes. These new high-end 
capabilities will bolster and refresh our user program and our users' 
research and allow EMSL to attract and retain vital scientific 
leadership. Our efforts are under way, and the instruments will be in 
our facility by December 31, 2010.
    We are also collaborating with the National High-Field Magnetic 
Laboratory at Florida State University and the Atomic and Molecular 
Physics Institute in the Netherlands to develop the world's highest-
field Fourier Transform-Ion Cyclotron Resonance mass spectrometer. This 
high-field magnet would make the scientifically impossible possible 
through increased analytical performance--sensitivity, dynamic range, 
accuracy, resolution, and speed/throughput. Such a system has the 
potential to revolutionize our biomolecular understanding of how 
organisms function and how microbial systems cooperate as communities 
by allowing our users to qualitatively identify and measure intact 
proteins, the machinery of life. The magnet would also allow our users 
to better investigate complex environmental samples such as fossil 
fuels and atmospheric aerosols. New knowledge garnered from this 
instrument would have applications to energy and environment problems 
of national significance. For example, it would help enable biofuel 
development and foster better-informed technical and policy decisions 
affecting environmental remediation, waste processing, energy 
production, and associated health impacts.
    In concert with the unique instrumentation at EMSL, BER has 
provided the user facility with much needed critical infrastructure 
support. They are making investments for the development a 
radiochemistry capability that will serve a broad and growing base of 
users who require instrumentation in a radiological environment to 
further their studies of chemistry and biogeochemistry of actinides, 
fission products, and the use of radiotracers for biological research. 
In addition, EMSL will build a new space that will house ultra-high-
resolution instruments for providing physical and chemical information 
at unprecedented spatial or energy resolution. Called the Quiet Wing, 
it will house new microscopy capabilities that require extremely low 
electromagnetic field and vibrational interference as well as high-
temperature stability.

EMSL Users

    Of course, EMSL would not exist without its user base. Users can 
access EMSL to perform either non-proprietary or proprietary research. 
There is no charge for access to EMSL if the research is considered 
non-proprietary, meaning that researchers will publish the results in 
the open literature and acknowledge EMSL's contribution. However, if 
the research is proprietary--the results are to be confidential--the 
user will pay full-cost recovery of the facilities used, which 
includes, but is not limited to, labor, equipment use, consumables, 
materials, and EMSL staff travel.
    During our 12 years of operation, we have hosted more than 10,000 
scientists from all 50 states and more than 60 countries, including 
many countries from Asia, most European countries, and Australia. Many 
of these users--nearly half--come from the university system.
    Another large user set of EMSL capabilities is scientists from the 
government sector, including the DOE national laboratory system, NASA, 
the Department of Defense, and the Department of Agriculture. Finally, 
members of industry comprise a much smaller sector of EMSL's user base 
due mostly to the proprietary nature of their research. These entities 
include, for example, Bayer Polymers, 3M, Ford Motor Company, and Dow 
Chemical Company.
    In terms of agencies that fund the projects of EMSL users, most--
nearly 45 percent--are funded by DOE; and one third of these DOE 
projects are funded by BER. The NIH and NSF fund approximately 25 
percent of projects at EMSL, and the balance is funded from a variety 
of sources, such as the Department of Defense, Department of 
Agriculture, and private industry.
    EMSL users range from undergraduate and graduate students to post-
doctoral fellows and research scientists and engineers. EMSL strives to 
bring in the best and brightest users to conduct the highest-impact 
science possible. We have counted among our users 160 distinguished 
scientists--including 11 National Academy members, 32 endowed chairs, 
two Nobel laureates, and 131 authors who are considered top publishers 
over a 10-year span.
    We have had many users from the states that the Members of this 
committee represent; for example, during the history of EMSL, we count 
among our users more than 20 researchers representing the University of 
South Carolina and Westinghouse Savannah River. Nearly 120 of our users 
call Texas their home and represent institutions such as University of 
Texas at Austin, Texas A&M, and Baylor College of Medicine. From 
Illinois, 90 researchers from institutions such as Argonne National 
Laboratory, the University of Illinois, and the University of Chicago 
have benefited from use of EMSL's capabilities and expertise. And in 
our home State of Washington, EMSL has been an excellent scientific 
resource for more than 2,300 researchers not only from PNNL, but also 
institutions such as the University of Washington, Washington State 
University, and the Fred Hutchinson Cancer Research Center.
    We continue to conduct outreach activities to grow our user base. 
This is done through colleague-to-colleague interaction, contact at 
professional society meetings, and development of programs such as the 
Wiley Visiting Scientist Fellowship and EMSL Distinguished User Seminar 
Series, among others.

Scientific and Technological Output

    Since Fiscal Year 2007 alone, EMSL-based research and discoveries 
have been the subject of nearly 1,000 papers in peer-reviewed journals, 
with 57 percent of them in top-10 journals and 13 of them in top-tier 
journals such as Science, Nature, and Proceedings of the National 
Academy of Sciences. Since that time, research at EMSL by our users and 
staff has been featured on more than 30 journal covers, including 
Science, Physical Chemistry Chemical Physics (PCCP), ACS Nano, 
Nanotechnology, and Proteomics. These statistics help illustrate the 
broad scientific impact enabled by EMSL.

Concluding Remarks

    To summarize, with continued support and investment from BER in the 
user program, EMSL will continue to bring Dr. Wiley's vision to 
fruition by providing the scientific community worldwide with the 
unique ability to integrate capabilities and staff expertise for 
achieving the highest-impact science.
    Thank you, Mr. Chairman, for providing this opportunity to discuss 
EMSL and DOE's biological research programs. This concludes my 
testimony, and I would be pleased to answer any questions you might 
have.

                   Biography for Allison A. Campbell
    Dr. Allison A. Campbell is the Director of EMSL--the Environmental 
Molecular Sciences Laboratory. Her primary responsibility is to lead 
EMSL in achieving its vision of being a premier scientific user 
facility for the Department of Energy by ensuring that EMSL develops 
and provides transformational computational and experimental resources 
to the scientific user community and conducts research that is focused 
on critical scientific issues. Dr. Campbell began her career with 
Pacific Northwest National Laboratory in 1990 as a post-doctoral 
fellow, when she joined the Materials Synthesis and Modification 
Technical Group. In 1992, she was hired into that group as a research 
scientist involved in developing new methods for synthesizing ceramic 
coatings from aqueous processes. She went on to manage the Advanced 
Materials Product Line and the Materials Synthesis and Modification 
Technical Group at PNNL before joining the EMSL management team in 
2001. She was named the EMSL Director in May, 2005.
    Dr. Campbell is nationally recognized for her contributions towards 
materials development through her research in the field of 
biomaterials. Dr. Campbell is credited with co-inventing a bio-inspired 
process to ``grow'' a bioactive calcium phosphate layer, from the 
molecular level, onto the surfaces of artificial joint implants (total 
hip and knee) to extend implant life and reduce rejection. She is also 
recognized for her work in understanding the role of proteins in 
biomineralization process such as tooth formation and decay. She has 
authored numerous peer reviewed technical papers, been an invited 
speaker at national and international meetings, and has several patents 
based upon her research. Additionally, Dr. Campbell is an avid promoter 
of science education, sharing her enthusiasm for science with young 
students through a number of hands-on education programs.
    Dr. Campbell is a member of the American Association for the 
Advancement of Science, the International Association for Dental 
Research, and the American Chemical Society.

Awards and Honors:

2006  R&D100 Award

2006  Federal Laboratory Consortium Award

2005  American Chemical Society Regional Industrial Innovation Award

2003  George W. Thorn Award, SUNY/Buffalo

2002  American Chemical Society--Outstanding Women in Chemistry

2001  Energy 100 Award for Biomimetic Coating for Orthopedic Implants, 
DOE

2000  Young Alumni Achievement Award for Career Development, Gettysburg 
College

1997  Fitzner-Eberhardt Award for Outstanding Contributions to Science 
& Engineering Education, PNNL

1997  Woman of Achievement Award, PNNL

1995  DOE Basic Energy Sciences Award in Materials Science

1994  Director's Award for Scientific and Engineering Excellence, PNNL

1987  Excellence in Teaching Award; SUNY/Buffalo

1985  Undergraduate Research Award; Gettysburg College

    Chairman Baird. Dr. Patrinos.

STATEMENT OF DR. ARISTIDES A.N. PATRINOS, PRESIDENT, SYNTHETIC 
                         GENOMICS, INC.

    Dr. Patrinos. Thank you, Mr. Chairman, Ranking Member 
Inglis, and Mr. Ehlers. I am honored to be asked to speak about 
BER and about my company, Synthetic Genomics, Incorporated. I 
am also pleased to see that my colleagues at the table also 
still recognize me and remember me.
    The common theme between BER and my company, Synthetic 
Genomics Incorporated, is, in fact, genomics, which you have 
heard so much about already. SGI was created by a genomics 
pioneer, Craig Venter, in the summer of 2005, to drive 
commercial solutions using genomics, starting with energy but 
eventually we expect to move into things such as vaccines, 
clean water, and many other applications. We are currently 
partnering with industry giants like BP to enhance hydrocarbon 
recovery, subsurface hydrocarbon recovery; with a Malaysian 
company, Genting ACGT, to sequence the genomes of Jatropha and 
oil palm, and of the microbial communities residing in the 
rhizosphere to include things such as yields, and very recently 
we also announced an alliance with Exxon to exploit algae-
produced biofuels.
    The genomics revolution as you correctly have stated 
started really with the Human Genome Project that was launched 
by the BER Program back in 1986, by one of my predecessors, 
Charles DeLisi. Through the genomics program, through the Human 
Genome Project, we have developed many high-throughput 
technologies for sequencing, assembly, and informatics, and 
many of those technologies were actually developed by Craig 
Venter himself.
    Over the years there have been very many successful 
partnerships between BER and Craig Venter, and in fact, one of 
them continues today.
    As you have heard already, synthetic biology, synthetic 
genomics, genome engineering are all new fields that have been, 
essentially have been launched by genomics and promise 
disruptive technologies with myriad applications beyond energy: 
in medicine and in other industrial processes.
    I am very proud of my many-year association with the BER 
Program and for the contributions the program has made since 
its inception. I will always remember the age of the program 
because it is the same age that I am, 62 years, and the 
contributions it has made in radiation biology, in nuclear 
medicine, climate change, bioremediation, genomics, structural 
biology, the list goes on.
    BER has always invested in high-risk and high-payoff 
research and leveraged the physical and the computational 
sciences that reside within the Office of Science, that unique 
position that BER enjoys. BER, therefore, should not be like 
NIH or NSF. It should retain its own DNA so to speak, because 
diversity is really the strength of the American scientific 
enterprise, and I mean diversity of performers, diversity of 
scientific approaches, and yes, diversity of funding sources. A 
good idea that gets shut out by an agency that dominates a 
field needs another chance to be shopped around. If it wasn't 
for the BER Program, the Human Genome Program would probably be 
much delayed and probably we would still be sequencing it.
    When I was in DOE, I suffered in the last few years by 
many--much questioning about why DOE should be doing biology. 
Questions came from the Secretary's office, from the OMB, and 
also from your sister committee on Energy and Commerce. There 
was also an attempt to raid BER to provide funding for the 
newly-founded Department of Homeland Security.
    I am hopeful that these dark days are over, and my 
successor will not have to suffer what I suffered back in those 
days. BER is extremely important for the DOE missions, 
especially those involving clean energy as you have heard. 
Carbon capture and sequestration will not be possible without a 
biological solution and also bioremediation of the legacy of 
the cold war.
    Also, BER has important scientific user facilities like you 
have heard: the Environmental Molecular Sciences Laboratory, 
the Joint Genome Institute, and the facilities and stations it 
nurtures, the light sources and the neutron sources of the 
National Labs.
    My suggestions for continuing the successful tradition of 
BER is to push the high-risk, high-payoff envelope. Too much is 
at stake, especially for climate, not to do that. Continue to 
exploit the physical and computational sciences that reside in 
the Office of Science. There are still many new tools and 
methodologies that BER can steal shamelessly in order to serve 
biology.
    Also, nurture public-private partnerships. I particularly 
appreciate that now being in the private sector. There are 
obstacles like intellectual property, but these obstacles 
should not stand in the way of making them successful. And 
build the scientific infrastructure for synthetic biology, 
including looking at the ethical, legal, and social 
implications of this new disruptive technology.
    Finally, I must say that the BER stewardship role for 
genomic science, Mr. Chairman, Mr. Inglis, Mr. Ehlers, needs to 
be affirmed, needs to be strengthened and generously funded if 
we are to successfully confront the great challenges of our 
times.
    Thank you very much for the opportunity to testify, and I 
would be delighted to answer any questions you may have.
    [The prepared statement of Dr. Patrinos follows:]

             Prepared Statement of Aristides A.N. Patrinos

Mr. Chairman and Members of the Subcommittee:

    Thank you for the opportunity to testify before the Energy and 
Environmental Subcommittee. I am honored to be asked to speak about the 
DOE Biological and Environmental Research (BER) program and about 
Synthetic Genomics, Inc. (SGI). I led the BER program between 1993 and 
2006 and since February of 2006 I have been the President of SGI.
    Genomics is the field of science that exploits new technologies and 
tools to allow scientists to routinely and accurately sequence the DNA 
of thousands of species. SGI was founded in 2005 by genomics pioneer J. 
Craig Venter to create genomics-driven commercial solutions that will 
revolutionize many industries, starting with energy. SGI is working 
with BP to study the microbial communities in coal beds in order to 
enhance the production of natural gas. Through a joint venture with the 
Malaysian company ACGT, a subsidiary of Genting Corporation, SGI has 
sequenced the genomes of Oil Palm and Jatropha to enhance yields, 
reduce the use of petroleum based fertilizers, and improve disease 
resistance of these oil seed crops.
    Recently SGI announced an agreement with ExxonMobil to harness the 
potential of algae to produce renewable fuels. Beyond the energy field 
we envision a future when synthetic genomics will be used to generate a 
variety of products, from new and improved vaccines to prevent human 
disease, to efficient and cost effective ways to provide clean drinking 
water. The world is dependent on science and SGI is leading the way in 
turning novel science into ``game-changing'' solutions.
    During the last twenty-five years the field of genomics has 
undergone a rapid transformation with scientific discoveries coming at 
a dazzling pace. The spark for this scientific revolution was the BER 
initiative to sequence the human genome launched by Charles DeLisi in 
1986 that led to the Human Genome Project (HGP).
    The research momentum created by the HGP enabled the development of 
technologies such as high-throughput DNA sequencing, genome assembly, 
and bioinformatics. These advances, many of which are directly 
attributable to Dr. Venter and his teams, have enabled researchers 
around the world to readily sequence and analyze the genetic codes of 
thousands of species. In fact, it was BER that went against the 
prevailing scientific opinion of the time and funded Dr. Venter in 1995 
to sequence the genome of Mycoplasma genitalium using the ``shotgun'' 
sequencing method.
    Over the years the scientific partnership of BER with Dr. Venter's 
teams has been one of the most successful fuels of the genomics 
revolution. This partnership led to many accomplishments including the 
Sorcerer II Global Ocean Sampling Expedition--conducted by the non-
profit J. Craig Venter Institute with funding from BER--which more than 
quadrupled the number of genes in the public data bases. I believe that 
BER, through support of scientists like Dr. Venter, can be credited 
with giving birth to the new field of synthetic genomics.
    The new fields of synthetic biology, synthetic genomics, and genome 
engineering have the potential to spawn disruptive technologies and 
dramatically improve our future. These fields enable us to use living 
systems to tackle stubborn challenges we face in medicine, energy, and 
the environment. The eminent scientist Freeman Dyson used genomics as 
an example when he discusses the difference between a concept-driven 
scientific revolution and a tool-driven scientific revolution.
    In his book ``Imagined Worlds'' Dyson wrote that in the concept-
driven science we are forced to explain old things in new ways whereas 
in tool-driven science we discover new things that need to be 
explained, a far more rewarding undertaking. Genomics is the tool that 
has transformed biology from a strict hypothesis-driven and data-poor 
discipline into a discovery-driven and data-rich enterprise. BER has 
been on the front line of this transformation.
    I am proud of my association with BER and of its many contributions 
over the sixty years of its existence. Formed at the dawn of the atomic 
era to address the impacts of ionizing radiation on human biology, it 
has been a trailblazer of many scientific activities. They include the 
fields of radiation biology, nuclear medicine, global climate change, 
environmental remediation, genomics, structural biology, computational 
biology, and bioinformatics. In most cases, BER has not had an 
exclusive role and never had the greatest portion of funding among the 
U.S. agencies sharing that role. Nevertheless, BER has made unique 
contributions because it has invested in high risk but high payoff 
research. BER has also capitalized on its proximity and association 
with the physical science and high performance computing programs 
within the Department of Energy. BER has used its unique resources to 
cross-fertilize biology, physical sciences and computational power to 
create new opportunities for discovery. As a relative newcomer to the 
business world I now also recognize the value of the creative ways by 
which BER has engaged research partners in the private sector.
    BER has never been and should never be like the National Institutes 
of Health (NIH) and the National Science Foundation (NSF) nor should it 
mimic all the functions of the other programs within the DOE Office of 
Science. The U.S. scientific enterprise is the best in the world 
because of ``diversity'': diversity in its scientific performers, 
diversity in its scientific approaches, and diversity in its funding 
sources. A research idea that may prove too risky or too controversial 
to a more mainstream funding agency should have a chance to be picked 
up and funded by a less risk-averse agency with very impactful results. 
Such is the heritage of BER and I hope this Subcommittee will 
appreciate this heritage and act to preserve it in the future. Every 
new political leadership has been tempted to ``tidy up'' the research 
activities across the government and periodically even propose a 
Department of Science. Thankfully, reason eventually prevails and the 
powers-at-be come to appreciate the value of diverse funding systems.
    One of the many challenges I faced during my tenure as Director of 
BER was the questioning of a DOE role in biology and more specifically 
in genomics. The questioning came from DOE leadership, from the Office 
of Management and Budget (OMB) and from Capitol Hill, specifically from 
the House Committee on Commerce and Energy. At times the questioning 
was in the context of why DOE should support biological research when 
it is mostly the primary funder of many elements of the physical 
sciences. At other times, there was a perceived redundancy with 
research activities at the NIH that is so generously funded. When the 
Department of Homeland Security (DHS) was formed there was an attempt 
to hijack the BER biology funding to support DHS R&D efforts.
    I am hopeful that these dark days are over and that it is now 
universally recognized and accepted that BER is an important member of 
the U.S. scientific enterprise and that it rightfully belongs within 
the DOE Office of Science. The existential challenges to BER led to an 
in-depth examination of the contributions and potential of the BER 
biology programs to serve the DOE missions. BER genomics science is 
leading the way in the production of biological energy, including 
biofuels, which are considered one of the best hopes of improving our 
energy independence, and tackling the problem of global climate change. 
The BER Bioenergy Centers are the world's foremost performers in basic 
research of renewable fuels from biomass. BER science is central to the 
biological part of carbon capture and sequestration that is considered 
an imperative of carbon management. BER programs are also essential in 
environmental bioremediation that holds the greatest promise of 
containing DOE's cold war legacy of mixed radioactive waste.
    BER plays a unique role in serving the needs of biologists from 
around the world who seek to access and use the scientific user 
facilities across the DOE National Laboratory complex and that were 
originally designed for the physical sciences. These include the 
synchrotron radiation and neutron sources, the Environmental Molecular 
Sciences Laboratory, and the supercomputer centers. These resources are 
enabling research in the fields of structural biology, structural 
genomics, proteomics, and computational biology. BER serves as the 
valuable intermediary between the biological research world and the 
research infrastructure of the National Laboratories that host the user 
facilities. A lead DOE scientific user facility is the BER Joint Genome 
Institute (JGI), which successfully completed the DOE contribution to 
the HGP. Today, the JGI is among the world's most productive sequencing 
centers focusing on organisms that are relevant to the DOE missions in 
energy and the environment.
    My suggestions for continuing the tradition of successful 
contributions of BER in genomics sciences are:

        <bullet>  First and foremost, push the envelope of high risk 
        and high payoff research. Our energy challenges are huge and 
        even though incremental advances are important we will not be 
        able to meet those challenges without the game-changing 
        approaches that BER has nurtured. In many ways, BER has 
        accomplished the biological piece of what the newly created 
        ARPA-E seeks to accomplish across the entire energy 
        technologies spectrum.

        <bullet>  Continue to capitalize on the inherent strengths of 
        the BER program by virtue of its existence in the bosom of the 
        physical and computational sciences. There are still many 
        instruments and methodologies in those sciences that BER can 
        exploit to further propel genomics science forward.

        <bullet>  Enable more creative public-private partnerships in 
        genomics involving the DOE National Laboratories and private 
        companies. There are barriers to such partnerships such as 
        issues of intellectual property but no barrier should be 
        insurmountable if the tremendous value of such partnerships is 
        recognized.

        <bullet>  Exploit the full potential of synthetic biology, 
        synthetic genomics, and genome engineering by building the 
        scientific infrastructure that will serve the diverse 
        performers in these fields such as those from academia and the 
        private sector. Take the lead in studying the ethical, legal, 
        and social issues dealing with these fields.

    Finally, I would like to address the stewardship role of BER for 
genomic science. I endorse the stewardship role of NIH in genomic 
science as it relates to human health and medicine. However, when it 
comes to genomic science that encompasses the broader living world 
there is no better and there will be no better steward than BER. That 
stewardship role of BER needs to be affirmed, strengthened, and 
generously funded if we are to successfully confront the great 
challenges of our times in energy and the environment.
    I would be happy to answer questions.
                 Biography for Aristides A.N. Patrinos
    Aristides A.N. Patrinos, Ph.D., is President of Synthetic Genomics, 
Inc. (SGI), a privately held company founded in 2005 applying genomic-
driven commercial solutions that address global energy and 
environmental challenges.
    Prior to joining SGI, Dr. Patrinos was instrumental in advancing 
the scientific and policy framework underpinning key governmental 
energy and environmental initiatives while serving as associate 
director of the Office of Biological and Environmental Research in the 
U.S. Department of Energy's Office of Science. He oversaw the 
Department's research activities in human and microbial genome 
research, structural biology, nuclear medicine and climate change. Dr. 
Patrinos played a historic role in the Human Genome Project, the 
founding of the DOE Joint Genome Institute and the design and launch of 
the DOE's Genomes to Life Program, a research program dedicated to 
developing technologies to use microbes for innovative solutions to 
energy and environmental challenges.
    Dr. Patrinos currently serves on two National Academy of Science 
committees: America's Energy Future; and Strategic Advice to the U.S. 
Climate Change Science Program. He is a fellow of the American 
Association for the Advancement of Science and of the American 
Meteorological Society, and a member of the American Geophysical Union, 
the American Society of Mechanical Engineers and the Greek Technical 
Society. Dr. Patrinos is the recipient of numerous awards and honorary 
degrees, including three Presidential Rank Awards and two Secretary of 
Energy Gold Medals, and an honorary doctorate from the National 
Technical University of Athens. A native of Greece, he received an 
undergraduate degree from the National Technical University of Athens, 
and a Ph.D. from Northwestern University.

    Chairman Baird. Dr. Gillo.

  STATEMENT OF DR. JEHANNE GILLO, DIRECTOR FOR FACILITIES AND 
PROJECT MANAGEMENT DIVISION, OFFICE OF NUCLEAR PHYSICS, OFFICE 
             OF SCIENCE, U.S. DEPARTMENT OF ENERGY

    Dr. Gillo. Thank you, Mr. Chairman, Ranking Member Inglis, 
and Members of the Committee for the opportunity to appear 
before you to provide testimony on the DOE Office of Science's 
Isotope Development and Production for Research and 
Applications Program within the Office of Nuclear Physics.
    The Isotope Program was transferred from the Office of 
Nuclear Energy to the Office of Nuclear Physics in March 2009, 
and specifically to the Nuclear Physics Facilities and Project 
Management Division. I served as the Director of the Division 
since 2004, and I am pleased to share with you my perspectives 
on the DOE Isotope Program.
    The Office of Science recognizes that isotopes are high-
priority commodities of strategic importance for the Nation and 
essential for energy, medicine, national security, and 
scientific research, and a goal of the program is to make 
critical isotopes more readily available to meet domestic 
needs. The expertise of the nuclear science community in 
operating accelerator facilities and developing instrumentation 
and accelerator technology for a broad suite of applications 
complement the expertise of the isotope production community. 
And the synergies between the two communities will lead to an 
overall improvement in the productivity of the Isotope Program.
    The Isotope Program produces isotopes only where there is 
no U.S. private sector capability or other production 
capacities are insufficient to meet U.S. needs. Isotope 
production for commercial distribution and application is done 
on a full cost recovery basis. Isotopes are needed for a broad 
range of basic research, biomedical, homeland security, and 
industrial applications that benefit society every day. For 
example, americium-241 for smoke detectors, helium-3 for 
neutron detectors, nickel-63 for explosive detections, 
strontium-82 for heart imaging, and californium-252 for oil 
exploration. Isotopes have had a profound impact on daily life, 
including reduced health care costs, improved ability of 
physicians to diagnose illnesses, and advances in agriculture, 
basic physics research and the security of the Nation.
    The Isotope Program supports both production capabilities 
at a suite of facilities as well as the research and 
development efforts associated with improving and developing 
isotope production and processing techniques.
    As a service, the Isotope Program also sells and 
distributes other isotope products that it does not directly 
produce. Examples are helium-3 and lithium-6 that are produced 
by the DOE National Nuclear Security Administration or NNSA. 
The Isotope Program does not produce special nuclear material 
or sell highly-enriched uranium. The Isotope Program is not 
responsible for the production of molybdenum-99, a medical 
isotope which currently is in short supply. The DOE National 
Nuclear Security Administration (NNSA) is responsible in the 
long-term for establishing a diverse domestic supply of 
molybdenum-99 without using highly-enriched uranium.
    The Office of Nuclear Physics has taken several actions to 
improve communication amongst isotope stakeholders. A workshop 
was organized last summer to bring together university, 
laboratory, federal and commercial isotope producers and users 
to discuss issues related to isotope production and identify 
isotopes in short supply. The Office of Nuclear Physics has 
specifically engaged federal agencies in discussions regarding 
agency needs and concerns on isotope production, including the 
National Institutes of Health, the Department of Homeland 
Security, and NNSA.
    The program is in the process of increasing the suite of 
production facilities with consideration given to the 
capabilities at universities, commercial entities, and other 
government facilities. The research component of the Isotope 
Program is being strengthened within Nuclear Physics. Research 
and development efforts associated with improving the 
effectiveness of or creating altogether new approaches to 
isotope production are being pursued.
    Research isotopes will be produced more reliably and at 
more affordable prices. In 2008, the Nuclear Science Advisory 
Committee on Federally Chartered Advisory Committee was charged 
by the Office of Nuclear Physics to develop a prioritized list 
of research topics across a wide range of scientific 
disciplines that used isotopes. The committee was also asked to 
develop a long-range strategic plan for future production of 
stable and radioactive isotopes.
    The Office of Nuclear Physics is committed to increasing 
availability of isotopes in short supply, providing isotopes 
reliably and more--at more affordable prices to researchers and 
supporting research activities that develop more cost-effective 
and novel isotope production techniques. NP is using merit peer 
review and priority-setting mechanisms to optimize the 
productivity of the Isotope Program within available resources.
    Thank you, Mr. Chairman and Members of the Committee, for 
providing the opportunity to discuss the Isotope Program, and I 
am happy to answer any questions that you may have.
    [The prepared statement of Dr. Gillo follows:]

                  Prepared Statement of Jehanne Gillo

    Thank you Mr. Chairman, Ranking Member Inglis, and Members of the 
Committee. I appreciate the opportunity to appear before you to provide 
testimony on the DOE Office of Science's Isotope Development and 
Production for Research and Applications program within the Office of 
Nuclear Physics. The Isotope Program was transferred from the Office of 
Nuclear Energy to the Office of Nuclear Physics within the Office of 
Science in March 2009, and, specifically, to the Nuclear Physics 
Facilities and Project Management Division. I have served as the 
Director of the Division since 2004, and I am pleased to share with you 
my perspectives on the DOE Isotope Program.

Overview of the Program

    For over 50 years, this program and its predecessors have been at 
the forefront of the development and production of stable and 
radioactive isotope products and related services that are used 
worldwide. The Office of Science recognizes that isotopes are high-
priority commodities of strategic importance for the Nation and 
essential for energy, medicine, commerce, national security, and 
scientific research. A goal of the program is to make critical isotopes 
more readily available to meet domestic needs. The program produces 
isotopes only where there is no U.S. private sector capability or when 
other production capacity is insufficient to meet U.S. needs. Isotope 
production for commercial distribution and application is done on a 
full-cost recovery basis.
    The Isotope Program has unique expertise and capabilities to 
address technology issues associated with the production, processing, 
handling, and distribution of isotopes. The expertise of the nuclear 
science community in operating accelerator facilities and developing 
instrumentation and accelerator technology for a broad suite of 
applications complements the expertise of the isotope production 
community, and we expect the synergies between the communities to lead 
to an overall improvement in the productivity of the Isotope Program.
    Isotopes are needed for a broad range of basic research, 
biomedical, homeland security, and industrial applications that benefit 
society every day. For example, americium-241 for smoke detectors; 
helium-3 for neutron detectors and lung imaging; nickel-63 for 
explosive detection; strontium-82 is used in heart imaging, tungsten-
188 and rhenium-188 for cancer research; californium-252 for oil 
exploration; and arsenic-73 as a tracer for arsenic studies. With 
Federal support over the last several decades, isotopes have had a 
profound impact on daily life, scientific discovery and innovation, and 
the Nation's economy, including reduced health care costs, improved 
medical diagnoses, and advances in agriculture and basic physics 
research and in national security. The Isotope Program supports both 
production capabilities at a suite of facilities and research and 
development efforts associated with improving and developing isotope 
production and processing techniques.
    The facilities used by the Isotope Program to produce radioisotopes 
include particle accelerators, hot cells, and reactors. Radioisotopes 
provided through the Program are produced in reactors by neutron 
absorption followed by radioactive decay or are produced in 
accelerators by bombarding materials with charged atomic particles 
followed by radioactive decay. Some isotopes provided by the Program 
are obtained by extraction from the waste byproducts of the 
Department's weapons programs and research activities. The Isotope 
Program is the steward of the Isotope Production Facility (IPF) at Los 
Alamos National Laboratory (LANL), the Brookhaven Linear Isotope 
Producer (BLIP) facility at Brookhaven National Laboratory (BNL), and 
isotope processing facilities at Oak Ridge National Laboratory (ORNL), 
BNL, and LANL. The IPF is completely dependent on the operations of the 
Los Alamos Neutron Science Center (LANSCE) facility.
    The Isotope Program also produces isotopes at facilities where it 
is not the steward--in this case, the program pays for space and 
services at those facilities. The Isotope Program purchases irradiation 
services at the High Flux Isotope Reactor at ORNL, a research reactor 
with a neutron scattering mission operated by the Office of Science 
Basic Energy Sciences program, to produce selected isotopes such as Cf-
252. In addition, the Isotope Program seeks cooperative isotope supply 
agreements with other government, private sector, and university 
isotope producers.
    The Isotope Program is also the steward of the National Isotope 
Data Center (NIDC) at ORNL. The NIDC coordinates isotope production 
across many facilities and manages business operations for the sale and 
distribution of isotopes. The NIDC also supports over 50 staff members 
at LANL, BNL, and ORNL who provide the technical expertise for 
research, production, processing, and transportation of isotopes, which 
are then processed, sold, and distributed from ORNL.
    While the research activities supported by the Isotope Program are 
modest, they provide important results. R&D includes target 
fabrication, enhanced processing techniques, radiochemistry, material 
conversions, and other related activities. It should be emphasized that 
the research activities supported by the Isotope Program are focused on 
isotope production and processing techniques to assure their 
availability for research and applications, not on their actual end-use 
applications, which is the mission of other programs and Federal 
Agencies.
    Further, the Isotope Program does not produce special nuclear 
material or deal in highly-enriched uranium, areas which serve as 
sources in the production of several important isotopes. So, while the 
Isotope Program is not responsible for producing such isotopes, it does 
work cooperatively with the responsible Department offices to provide 
services, technical advice, or R&D on potential alternative production 
techniques. For example, as a service, the Isotope Program sells and 
distributes isotope products like helium-3 (He-3) and lithium-6, which 
are produced by the DOE/National Nuclear Security Administration 
(NNSA). But, the challenge associated with producing He-3 is that it is 
a byproduct of tritium decay; and the availability of tritium is 
determined by NNSA mission needs, not by a commercial demand for He-3.
    Similarly, the DOE Office of Environmental Management is 
responsible for disposition of excess uranium-233 stockpiles. Though 
uranium-233's decay products, alpha-emitting radioisotopes are in 
demand by the research community. Uranium-233's proliferation and 
national security concerns support continued disposition, thus limiting 
its availability. To address this dilemma, the Isotope Program is 
pursuing R&D on alternative isotope production techniques for these 
alpha-emitters as a high priority, with the goal of decreasing 
dependence on uranium-233 sources.
    Other needed isotopes under various DOE Program Offices include the 
production of Plutonium-238, for which DOE's Office of Nuclear Energy 
has mission responsibility to support activities such as the 
fabrication of radioisotope thermoelectric generators for NASA's deep 
space program, and the production of Molybdenum-99 (Mo-99), a mission 
responsibility of NNSA. Mo-99, a commercial isotope used extensively in 
medical diagnosis, is currently in short supply. NNSA is responsible 
for establishing a diverse domestic supply of Mo-99 as part of their 
mission to minimize the use of Highly-Enriched-Uranium to avoid 
proliferation concerns. Today, the Isotope Program and the Department 
are actively engaged in interagency and international discussions on 
how to address the current shortage.

Recent Activities

    Operations of the current isotope production facilities are being 
assessed to ensure that resources are being utilized optimally. The 
Isotope Program is in the process of increasing the suite of production 
facilities that will provide isotopes, with consideration given to the 
capabilities of universities, commercial facilities, and other 
government facilities. The research component of the Isotope Program 
will be strengthened, and research and development efforts associated 
with improving the effectiveness of or creating new approaches to 
isotope production will be pursued. Research isotope production will be 
prioritized, based on community input; the overall goal will be to 
produce research isotopes more reliably and at more affordable prices. 
Additional cooperative agreements with the commercial sector will be 
pursued to leverage resources. Sound planning processes and merit-based 
peer review will guide the Program's production decisions and strategic 
planning.
    In August 2008, the Nuclear Science Advisory Committee (NSAC), a 
Federally-chartered advisory committee to the DOE and the National 
Science Foundation, was charged to develop a prioritized list of 
research topics across a wide range of scientific disciplines, 
including the medical field. NSAC was also asked to develop a long-
range strategic plan for future production of stable and radioactive 
isotopes. The Isotope Program also issued a call to universities, 
national laboratories, and commercial facilities for proposals to 
produce high-priority research isotopes.
    The Office of Nuclear Physics is engaged in discussions with other 
Federal Agencies concerning isotope needs and production. A working 
group with the National Institutes of Health (NIH) was established to 
address the recommendations of the recent National Academies report 
Advancing Nuclear Medicine Through Innovation, which identified areas 
of isotope production warranting attention. A strategic plan was 
generated that identifies the isotopes and quantities needed by the 
medical community for the next five years, in the context of the 
Isotope Program capabilities. The Office of Nuclear Physics also is 
represented on several interagency working groups considering the 
production of Mo-99 in order to enhance communication within the 
Department and with other federal agencies and to provide technical 
support in development of short-term and long-term solutions. The 
Office also facilitated the formation of a federal working group on the 
He-3 supply issue involving staff from the Office of Nuclear Physics, 
NNSA, the Department of Homeland Security, and the Department of 
Defense. This working group will help ensure that the limited supply of 
He-3 will be distributed to the highest-priority applications and basic 
research.

Recovery Act Support

    Funds from the Recovery Act are supporting an R&D initiative on 
alternative and innovative approaches for the development and 
production of critical isotopes and for the improved utilization of 
isotope production facilities. This includes additional operations for 
the production of isotopes, one-time investments to improve the 
efficiency of or provide new capabilities for the production of 
isotopes at existing production facilities, and opportunities to 
establish production capabilities at new production sites based on peer 
review of the proposals received from the open call mentioned above.

Concluding Remarks

    The Office of Nuclear Physics (NP) is committed to increasing 
availability of isotopes in short supply, providing isotopes reliably 
and at more affordable prices to researchers, and supporting research 
activities that develop more cost-effective and novel isotope 
production techniques. NP will utilize merit peer review and priority 
setting mechanisms to optimize the productivity of the Isotope Program 
within available resources.
    Thank you, Mr. Chairman and Members of the Committee, for providing 
this opportunity to discuss the Isotope Development and Production for 
Research and Applications program. I'm happy to answer any questions 
you may have.

                      Biography for Jehanne Gillo

    Dr. Jehanne Gillo has been the Director of the Facilities and 
Project Management Division in the Office of Nuclear Physics at the 
U.S. Department of Energy (DOE) since 2004. In this position, she aids 
in establishing the vision, strategic plans, goals, budgets and 
objectives for the scientific and technical activities supported by the 
Division, and Office of Nuclear Physics in general. She is responsible 
for planning, constructing, upgrading and operating the Nuclear Physics 
program's user facilities and for overseeing the fabrication of major 
instrumentation used at these facilities and elsewhere. During this 
time she also served as the Acting Associate Director of Science for 
Nuclear Physics from September 2007 to October 2008.
    Dr. Gillo joined the Office of Science's Division of Nuclear 
Physics at DOE as Program Manager for Facilities and Instrumentation in 
February 2000. Prior to coming to DOE, Dr. Gillo, was a guest scientist 
at Los Alamos National Laboratory (LANL) from 1988-1989, and then a 
staff scientist from 1990-2000. During this time period she performed 
nuclear physics experiments at Brookhaven National Laboratory, Los 
Alamos National Laboratory, and the CERN Laboratory in Geneva, 
Switzerland. Dr. Gillo obtained her Bachelor of Science Degree from 
Juniata College in 1985, and her Ph.D. in nuclear chemistry with an 
emphasis in relativistic heavy ion physics research from Texas A&M 
University in 1990.

                               Discussion

    Chairman Baird. I thank the panel for most informative 
testimony. You are doing great work.
    I will recognize myself for five minutes and then we will 
proceed with my colleagues.

                        Interagency Coordination

    Help me understand--Dr. Patrinos, it is good to see you 
again. We were here previously on some of those prior hearings. 
I remember them. Walk us through, though, a little bit about 
the interface between, you know, between let us say NSF, DOE, 
now ARPA-E, and how research is, you know, how do you make sure 
that we are not all doing the same thing or we are not 
neglecting the ``gee whiz'' discovery that is going to solve 
the problems? How do you sort that out? How do you coordinate 
with those other agencies, and how do you differ in some ways?
    Dr. Palmisano. Thank you for your question, Chairman Baird. 
All of our program managers are actively engaged in interagency 
working groups under the aegis of the National Science and 
Technology Council and the Office of Science and Technology 
Policy, the President. And through these relationships we build 
joint programs, we ensure that our programs are synergistic and 
complementary, and then we minimize the amount of overlap that 
exists. And I would be happy to give examples if you would 
like.
    Chairman Baird. So if NSF is focusing its funding, related 
funding in some area, you would say, okay. You have got that 
covered. We are going to look at a different way?
    Dr. Palmisano. Yes, sir. That is exactly correct, and you 
know, I can give examples of where, for example, we have 
partnered with other agencies, such as the U.S. Department of 
Agriculture in bioenergy, where we realized that we had, both 
had interests in biofuels but we have complementary expertise. 
So we launched a program on plant genomics for bioenergy 
feedstocks, and that took advantage of the USDA's expertise in 
traditional plant breeding and cultivation of bioenergy crops 
and DOE's expertise in genomics.
    So there are many similar examples of that with the 
National Science Foundation, NIH and other agencies.
    Chairman Baird. That is very helpful. The argument, of 
course, a while back was, well, you know, to what extent is 
this duplicative, do we have multiple bureaucracies trying to 
do the same thing, can we not save money, et cetera. And I 
think there are--there is a great deal of merit to the cross 
disciplinary synergies that you describe, and unexpected--when 
a layman looks at DOE to see your operation, it is unexpected--
the proof is in the pudding to some extent, and you have done 
some remarkable things, and I think that is commendable.
    Dr. Keasling, you sort of raised an intriguing question 
that I want to follow up on a little bit.

                    Concerns About Limiting Research

    Two things. One, you spoke about limiting research to just 
fuels would be a mistake and a lost opportunity. Are you 
feeling like it is limited, or are you concerned about the 
potential that it would be limited?
    Dr. Keasling. I am more concerned about the potential that 
it would be limited. I think now that BER has gone down this 
path of biofuels from biomass, which is a great thing for it to 
be doing, we could potentially source all of our petroleum-
based--all the chemicals that we now source from petroleum, 
from biomass or from sugar, and so there is huge potential 
there. And the research would be directly complementary to what 
is already being done in BER, so it is a potential growth area.
    Chairman Baird. I am not sure I understand. You are saying 
because it is a growth area that would rule out some of the 
other research or----
    Dr. Keasling. No. I am saying that it is an additional area 
of research that could be done by BER.
    Chairman Baird. Okay. Related and actually the next area in 
your testimony you had talked about--and you worded it 
artfully, so I don't want to try to get you in trouble if this 
would do so, but it was an important issue that if addressed 
effectively could improve the Department's ability to develop 
solutions, and the issue there seemed to be that the energy 
research seemed somewhat disconnected from the basic sciences.
    Can you elaborate on that?
    Dr. Keasling. In fact, we are using a lot of the basic 
science research that BER has developed over the years, so a 
lot of the basic research that is going on in their Genomics: 
GTL Programs, in the Joint Genome Institute, all this is 
extremely important to the work that we are doing on converting 
biomass to biofuel.
    So, in fact, that core basic research is so important, and 
the work we are doing, while it has an important goal of 
breaking down these barriers of biomass to biofuels, it is 
still fundamental research.
    Chairman Baird. Okay. Are there artificial constraints, and 
this is for anybody, where you feel that you have the expertise 
and knowledge to make major contributions in an area that is 
consistent with your mission but that we have somehow 
statutorily or historically constrained? Anyone here feel you 
have the leeway to do what you need to do?
    Dr. Keasling. For my own perspective the research we are 
doing is something that I would want to do anyway.
    Chairman Baird. Yes.
    Dr. Keasling. It is important, though, for us to make a 
connection to energy, we feel, as we are proposing this 
research. So----
    Chairman Baird. The connection is great, but at the same 
time, you know, you gave a point about artemisinin, and that is 
a big deal, and if you have the--if you find that thread, you 
ought to be able to pursue it.
    Dr. Keasling. That is right. That is right, and artemisinin 
is a unique case because it is a hydrocarbon, so it is not too 
far a stretch from biodiesel.
    Chairman Baird. Great.
    Proud to recognize Mr. Inglis for five minutes.

               Flexibility and Properly Directing Funding

    Mr. Inglis. Thanks, Mr. Chairman.
    So Dr. Keasling said something interesting that I would 
like to compare with what Dr. Patrinos said about funding.
    Dr. Keasling, you said that it is important to figure out 
which research paths are dead ends and cut them off quickly, 
which makes a lot of sense to me, and then it is also true Dr. 
Patrinos said he wants diversity of funding sources, and I 
guess that is in order to develop the kind of paths that maybe 
aren't too clear.
    So how do you work that out? I think it is an impossible 
question actually but----
    Dr. Keasling. That is an excellent question, and I was 
speaking more about how JBEI manages its research portfolio, 
and one of the things that we wanted to do when we designed 
JBEI is be able to go down a path that looked like it was going 
to be productive as quickly as possible and see if it is going 
to be a productive angle of research, and if not, then we 
redirect those research funds to another area that--an 
alternative area that looks like it is going to be productive 
so that researchers don't spend all of their time going down a 
particular path that will eventually be non-productive, but 
they are doing so because they don't have any flexibility.
    So we have built in this flexibility at JBEI from the top 
that allows us to really focus on an important aspect, and if 
it doesn't work, go to the next aspect of the problem.
    Mr. Inglis. Which is a difficult thing to do, right, 
because people say they have got their Ph.D. in a particular 
area. That means that their sort of meal ticket is punched by 
that area, and so if you find out that that is not productive, 
they just lost their meal ticket. Right? And so it is--maybe 
there is a way that you do that. It is a tough management 
challenge I take it.
    Dr. Keasling. It is a tough management challenge, but 
because there are so many important problems. If we take, say, 
the plant area, for instance, we have researchers in JBEI who 
specialize in plant genetic engineering and understanding how 
cellulose is made in plants so they could be looking at one 
particular aspect of how cellulose is made and maybe that won't 
work or it doesn't look like we can increase the cellulose 
level. So they will turn their attention to a different way in 
those same plants or still using plants to increase the 
cellulose level.
    So it is a little more subtle than completely cutting off 
an entire research area, and we do to the extent we can try to 
preserve people's meal tickets.
    Mr. Inglis. Right. Well, Dr. Patrinos, anything to add 
about that, about how you balance that?
    Dr. Patrinos. Well, I would like to say that basic research 
is fundamentally a messy housewife, and the tendency is always 
by especially newcomers in political positions to tidy up 
research, to look for redundancies and remove those because, 
you know, that way we save money and so on. It turns out that 
the more you try to tidy up, the more you restrain the 
research.
    There has to be redundancy, because there has to be 
competition, and there has to be diversity in approaches. I 
mean, I, when I was--if I was still in DOE, I would have said 
the same thing my colleague, Anna Palmisano, said that we did a 
lot of collaborations when I was in DOE across agencies, and I 
think my record speaks for itself in terms of the partnership 
with NIH, with NSF, and other agencies and so on.
    But I don't hide the fact that there was also competition. 
We had different attitudes, different approaches, and we 
presented different cultures, and even though there wERE 
occasional arguments, sometimes pretty violent ones I would 
say, the net result was always very, very positive. You know, 
it was the give and take of competition, the give and take of 
having different points of view that were brought to the table, 
and the ultimate result in the conduct and execution and 
management of research is so far better than anywhere else in 
the world because of that perceived untidiness.
    Mr. Inglis. Yes. Dr. Palmisano, do you want to add anything 
to that or how your approach may differ or be consistent?
    Dr. Palmisano. Yes, Congressman Inglis. I agree with 
everything that Dr. Patrinos said, and I think I would describe 
it as we challenge one another in a very positive way to 
provide the best we can for the American public, and I think 
that there is a very good balance and dynamic among the 
different agencies pursuing science for that reason.
    Mr. Inglis. Thank you, Mr. Chairman.
    Chairman Baird. Thank you.
    Dr. Inglis--Dr. Ehlers.
    Mr. Ehlers. Thank you, and just a quick side note. I agree. 
Dr. Patrinos said basic research is messy, at least the way I 
did it it was. I am puzzled why you blamed the housewife 
instead of the house husband. I find house husbands are much 
messier than housewives. It is okay. Don't take me seriously.

                            Isotope Program

    Dr. Gillo, I must admit I am suffering from some sleep 
deprivation, but I don't quite see how the isotope production 
relates to what we are doing and what--first of all, what 
isotopes are you talking about producing, and how does that 
relate to the energy generation issue? Could you run through 
that again, please.
    Dr. Gillo. So the Isotope Program that was just transferred 
to the Office of Nuclear Physics has two components: to produce 
isotopes for basic research and also for a broad suite of 
applications. And so we operate accelerator facilities and also 
make use of other facilities domestically--reactors and 
accelerators--to produce these isotopes and to distribute them 
as a service to the Nation.
    Mr. Ehlers. Okay.
    Dr. Gillo. They are used for energy reasons. They are used 
by the BER Program and----
    Mr. Ehlers. Okay. That part I understand, but how does it 
relate to the cellulosic issue and energy production issue? Are 
these used as tracers in some of the experiments?
    Dr. Gillo. They can be used as tracers, and yes, they are 
used.
    Mr. Ehlers. Are these by and large radioactive isotopes?
    Dr. Gillo. There are radioactive isotopes, and there are 
stable isotopes. For the stable isotopes, we have an inventory 
that we distribute, and the radioactive isotopes we produce. 
And so the BER Program scientists are users. The NP Program, we 
are the producers of the isotopes, and yes, they are used as 
radiological tracers in plant studies and other life sciences.
    Mr. Ehlers. Okay. Now, the non-radioactive ones you trace 
them with mass spectrometry and so forth?
    Dr. Gillo. Yes. They are used--one of the ways that they 
are used is for nutritional studies since they are non-
radioactive, and so that is one of the most popular. Bone 
studies, calcium retention and bone growth, osteoporosis 
studies.
    Mr. Ehlers. Okay. Thank you.

                 Cellulosic Ethanol and Algae Biofuels

    I wonder if somebody could give me the broad perspective 
here. You know, everyone got excited about ethanol here a few 
years ago, and we passed some legislation which I thought was 
probably unnecessary and perhaps damaging, and I would 
attribute that mostly to the farm lobby rather than the 
scientific community. And I think my impression has borne, has 
been borne out, that it is not the best way to go.
    But in just picking up what you said, it seems to me you 
are still talking a lot about ethanol, but producing it with 
cellulosic material. Are you looking at other fuels, and what 
other fuels are you looking at?
    Dr. Patrinos. Well, I can start, Mr. Ehlers.
    We believe, at Synthetic Genomics, that corn-based ethanol 
especially is a big mistake.
    Mr. Ehlers. Yeah.
    Dr. Patrinos. In some way, of course, we benefited because 
through that process we cut our teeth in the biofuels business, 
so at least there is some, some credit is due. But we need to 
move away from corn-based ethanol as far and as fast as 
possible.
    Any fuel that competes with food should really not be 
pursued. We should not pursue it.
    I also think that ethanol is not a very good fuel by 
itself, you know, it hasn't--it doesn't mix with water, it is 
very corrosive. So it may have been a good start, but I think 
we need to be moving away from ethanol as well.
    So there are better quality fuels that we could pursue, 
even using cellulosic material, but also as I mentioned in my 
introductory remarks, the use of algae to produce a variety of 
biofuels is perhaps the one that we think has the greatest 
promise.
    Mr. Ehlers. And what type of biofuels would they produce?
    Dr. Patrinos. Jet fuels is the fuel that we particularly 
are focusing on at this stage, but it doesn't necessarily have 
to be a fuel. The process can actually generate crude that 
mimics in every way the crude that we remove from the ground so 
we can insert it into the existing infrastructure for the 
production of a whole variety of fuels that we currently use. 
So that would be the ultimate holy grail of this enterprise.
    Mr. Ehlers. I see, and what sort of chemicals do you pull 
out of this?
    Dr. Patrinos. They are essentially different molecules of 
carbon. Let us say starting from C12 all the way up to C20.
    Mr. Ehlers. Oh, really? And you will get that large variety 
from the cellulosic material?
    Dr. Patrinos. No. The one that I am describing is using 
algae, carbon dioxide, and sunlight.
    Mr. Ehlers. Yeah. Okay, and you regard that as a very 
promising field at the moment?
    Dr. Patrinos. We do indeed.
    Mr. Ehlers. Yeah. Are there other promising fields that you 
are looking at?
    Dr. Patrinos. This is not a renewable field per se, but we 
are looking to enhance the production of natural gas in 
existing coal beds, and thus avoid the need to extract the 
carbon and to burn it. So from a point of view of CO<INF>2</INF> 
climate change impacts, it is a significant savings because 
burning methane is a lot cleaner than burning coal.
    Mr. Ehlers. That is certainly true, but you still generate 
a lot of CO<INF>2</INF> from----
    Dr. Patrinos. We generate CO<INF>2</INF> but I go back to 
my first statement about using algae.
    Mr. Ehlers. You are also using carbon there.
    Dr. Patrinos. The CO<INF>2</INF> generated from the methane 
can then be recycled using the algae and sunlight.
    Mr. Ehlers. Okay. I think my time has expired, so I better 
yield.
    Chairman Baird. The great thing about Dr. Ehlers is he 
knows what he is talking about, so he can go on for awhile, and 
we just watch and learn.
    Mr. Ehlers. I am just very good at pretending.

                      Public-Private Partnerships

    Chairman Baird. Give us some discussion of--Dr. Patrinos 
raised the issue of public-private partnerships, and one of the 
questions the public rightfully asks is, okay, so what is in it 
for them. Give us some examples, if you can--Dr. Campbell, for 
example, take just for example your work at EMSL--what are some 
examples of things that you think might have commercial 
applications? Or if I am talking to John Q. Public about why do 
we do this research, what does the average guy get out of his 
or her investment in this endeavor? Give us some examples of 
that. Talk about how you would partner with a private company 
and what the vocations are, et cetera, for that.
    Dr. Campbell. Sure. At EMSL, of course, since it is a 
national user facility, many of our users or some of our users 
come from industry, and they can either work with us in one of 
two ways. They can work in a proprietary manner where they pay 
the fee to operate and utilize the facility, in which case they 
would retain any intellectual property or knowledge that would 
result from that research.
    A more common way for industry even is to work in the open 
environment where they agree to publish. And many times they 
come with us on--in a lot of cases on the technology 
development side. So they may be interested in pushing the 
technology or instrument forward.
    An example of that would be in our mass spectrometry area, 
where we are developing capabilities that would enable us to 
increase the sensitivity of certain commercially available mass 
spectrometers or the throughput of those mass spectrometers. We 
develop that, and then that would be commercially available and 
licensed out to these companies, for instance.
    Then the greater benefit of that is, of course, the 
resulting science that these advancements have for the 
scientific community broadly. So if you can do things at higher 
resolution, at higher throughput, you can perhaps start to do 
clinical essays or clinical studies or more system-wide-type 
studies that get published. It goes out to the broader 
scientific community in that regard.
    So you can have a direct line, or you can have a more 
indirect line where the knowledge base is created through these 
advancements.
    Chairman Baird. So on the one hand you have facilities that 
other people--maybe I am a bright person but I don't have the 
capital to build the kind of equipment you have, maybe nobody 
has that capital except government.
    Dr. Campbell. Yes.
    Chairman Baird. And so the government is able to say we 
will make these resources available, and then people from 
private sector can contract with you to do that. Right?
    Dr. Campbell. That is correct.
    Chairman Baird. And at the same time then you help refine 
the instrumentation that could be used by the private sector.
    Dr. Campbell. In partnership oftentimes with the private 
sector. So we have, for instance, a partnership with a company 
that builds probes that goes into these magnetic resonance 
spectrometers. They are interested in it because it can go into 
their product pipeline. We are interested in it because it can 
open up a whole new area of biological research that will allow 
you to look at proteins inside intact membranes.
    And so our users are now getting a new capability through 
this partnership with this company, and they are getting a new 
product pipeline. So it is a win, win in my opinion.
    Chairman Baird. Do they pay--if I develop a product based 
on your work, is there a ``buy'' kind of function? Do I pay 
back into the system, or how does that work?
    Dr. Campbell. Yeah. There are intellectual property rules 
that we follow, and it depends upon, of course, the type of the 
agreement or the relationship where the government may take 
some ownership in the intellectual property and then it comes, 
it can come back into the laboratory, or it might be an 
exclusive. It just really depends on the type of relationship.

                  The Government's Role and Next Steps

    Chairman Baird. Dr. Patrinos, now that you have made the 
jump to the dark side--I am just teasing with that, but you 
have made this big move from director of a government program 
to the private sector--what insights have you gained about 
that? How do you, you know, in terms of how we can do things 
better on the government side, or how private sector can 
interact better? What are you insights from that?
    Dr. Patrinos. First of all, it may sound a little self-
serving when I encourage you to foster more and more productive 
public-private partnerships, but I must say that even when I 
was in the Department of Energy and specifically with the Human 
Genome Project, I advocated a very strong presence and 
involvement of the private sector. In fact, I helped bring 
Synthetic Genomics to the table, and we successfully completed 
the program and avoided, you know, serious embarrassment at the 
time. But we also created many partnerships that survive to the 
day and are extremely productive. So it isn't just self-
serving.
    But nevertheless, my move to the private sector has very 
much reinforced my conviction that it really is the private 
sector that can translate successfully the wonderful 
discoveries that the programs like BER nurtures and translates 
them into real products and services. This is something that I 
have grown to appreciate a lot more than perhaps I 
theoretically or, you know, intellectually could accept in the 
past.
    It has already been mentioned what kind of things that 
needed to be done. One of the areas that I feel needs to be 
strengthened further is creation of these scientific user 
facilities across a broader spectrum of the scientific 
disciplines. I think biology is tremendously benefited by the 
light sources and the neutron sources and nuclear magnetic 
resonance facilities like EMSL, for example, but we need to do 
more for biology, because biology is the science of this 
century. And we need to provide the resources for all our 
scientists in both the public and the private domain. And they 
need these facilities whether they are super-computers for 
computational biology or dedicated facilities for the 
production of proteins, for example, or doing the proteomics of 
looking at the entire protein components of an individual cell.
    These are capabilities that are in great demand, and if 
successfully put in place will enable biology to very quickly 
deliver on the promises that it has made, very rightfully so, 
of changing our lives, changing our industries, and solving 
many of our problems.
    Chairman Baird. Dr. Palmisano, please share your insights 
on that as the current director.
    Dr. Palmisano. I think the future lies in our solving the 
problem of the vast amounts of data that are being generated 
through systems biology. Our ability to manage those data, to 
mine them, to integrate them, to provide them and make sure 
they are accessible to a broad community of sciences, to assure 
their quality and standardization. And I think that is a major 
challenge that probably all of us at this table face.
    And we are through the new sequencing, types of sequencing, 
technologies, regenerating a huge amount of genome sequencing, 
proteomic data, metabolomic data, it goes on and on. 
Information about genetic networks, trying to combine that with 
computational models of biology and, you know, I see that as 
really a need for the future.
    Chairman Baird. I don't really think the general public has 
a full appreciation, probably not this body itself, of this 
kind of model, of the basic science role. Not just the basic 
science in terms of the, okay, so the publication comes out and 
the data gets out, but the basic science in terms of the 
hardware, the physical infrastructure, the super-computers, the 
light sources, the Nuclear Magnetic Resonance spectroscopy, et 
cetera, the average guy just doesn't have access to, but really 
brilliant people can access it through your resources and then 
get, you get a tremendous multiplier. We see it with nanotech 
as well in some of the nanotech initiatives, and I think there 
is a whole host of--whether it is accelerators that we really 
need to sort of highlight that. And this comes in the context 
of the sort of vitriolic debate now of, does government do 
anything well?
    Government does best what people can't necessarily do 
themselves, and this is something government does well. I don't 
think the average business is going to create, you know, light 
sources or accelerators or isotopes in some cases. Some do 
obviously. They make a business model out of it, but in some 
cases we just have resource to allow us to do that, and DOE is 
an example of that.
    Mr. Inglis.
    Mr. Inglis. Thank you, Mr. Chairman.

                            Carbon Recycling

    Following up on that, it is also true that private industry 
is the one that is going to implement the technology. So if, 
for example, Dr. Patrinos was talking about the use of carbon 
dioxide to grow algae, is that--we need to do more of this 
research I take it in order to prepare for that, but there is a 
point at which you want it to tip over to have somebody 
actually building these things and using the CO<INF>2</INF>. 
Right?
    How far away is that before we are really making use of the 
CO<INF>2</INF> rather than wasting it?
    Dr. Patrinos. It is going to be several years before we can 
have large-scale recycling of CO<INF>2</INF> through the method 
that I described using algae and sunlight. But nevertheless, 
the urgency is huge because of the problem of global climate 
change and the need to do something about carbon.
    Mr. Inglis. Right.
    Dr. Patrinos. And therefore, if properly funded, both by 
the public and the private sectors, I think we can see some of 
these advances happening faster perhaps than other--than we may 
have assumed originally. This is the promise of biology. This 
is the promise of genomics.
    I make the parallel of currently the advances are on the 
surface. It used to be that you had to dig real deep to get a 
nugget of gold in the high-energy physics field. In biology all 
you need to do is stoop down, and you pick it up from the 
ground. That is the analogy that I have.
    Genomics has given us this power, has given us this tool, 
and all we need to do at this stage is make sure the right 
resources are put in place so that we can fully capitalize on 
this capability.
    Mr. Inglis. So with limited resources would you put your 
money on using the CO<INF>2</INF> to grow algae, or would you 
put it on sequestration?
    Dr. Patrinos. I would do both. I strongly believe that 
dealing with the climate change problem we have a case of 
silver buckshot as opposed to a silver bullet.
    Mr. Inglis. Okay.
    Dr. Patrinos. We need to look at all forms of 
sequestration, just like we need to look at all forms of 
energy, renewable energy.
    Mr. Inglis. Is it because it is not possible to use the 
great volume of CO<INF>2</INF> so basically you got to figure 
out some way to sequester it? Is that right? I mean--or can you 
see a future where there is--the use of CO<INF>2</INF> is 
scalable to the point that you really could use, say, all that 
is coming out of a coal-fired electrical plant, for example, to 
create this biofuel?
    Dr. Patrinos. Perhaps not all of it, but if we were 
successful in sequestering or recycling 50 percent of that, it 
is a long ways towards stabilizing the atmospheric 
concentration of CO<INF>2</INF>, if we combine that with 
aggressive use of renewable energy.
    Mr. Inglis. Interesting. Anybody else want to add to that?
    Dr. Keasling. When plants grow, they are scrubbing CO<INF>2</INF> 
out of the atmosphere to make the biomass, and this is another 
way we can reduce carbon dioxide being put into the atmosphere 
by producing our fuels from that cellulosic biomass.
    And so just as algae do it and scavenge it to build more 
algae, so do plants, and this is a great way to go for carbon-
neutral biofuels.
    Mr. Inglis. Yes.
    Dr. Palmisano. At this point in time there is so much we 
need to learn about the carbon cycle; it is one of the greatest 
uncertainties in our climate models and very fundamental 
information. And now we are starting to bring the tools of 
modern molecular biology and genomics to bear on the carbon 
cycle. And in doing so we want to cast a wide net and use a 
number of different models, plant, microbial models, microbial 
communities.
    Mr. Inglis. Great. Thank you, Mr. Chairman.
    Chairman Baird. Dr. Ehlers.

                      More on Cellulosic Biofuels

    Mr. Ehlers. Is it fair to say that what you are doing with 
cellulosic materials, algae, and so forth is developing very, 
very sophisticated ways of using solar energy? Or is it more to 
it than that?
    Dr. Keasling. Well, nature has been doing this for a long 
time.
    Mr. Ehlers. I know.
    Dr. Keasling. So we are repurposing this source of biomass 
or algae as it is to produce biofuel. So it is a sophisticated 
form of capturing sunlight and carbon dioxide.
    Mr. Ehlers. Yeah. Because that is really your energy 
source.
    Dr. Keasling. That is correct.
    Mr. Ehlers. And it is really the only perpetual, relatively 
perpetual energy source we have.
    Dr. Keasling. That is right. The key, though, is to get 
them to produce the right fuels.
    Mr. Ehlers. Yeah.
    I--last round I had most of my questions for the end of the 
alphabet but not quite the alphabet but usually we go left to 
right, so I started the other way, but want to give the three 
of you on that side a chance to respond to the questions I 
asked earlier.
    If you don't wish to, that is fine, but I just wanted to 
give you the opportunity.

                             Radioisotopes

    Dr. Palmisano. Well, thank you, Congressman Ehlers, for 
that opportunity. One thing I would like to comment on that you 
asked Dr. Gillo about was this--the use of radioisotopes. We 
work very closely with Dr. Gillo and with our colleagues at NIH 
on to develop new types of radio-chemistries that can be used 
as metabolic tracers for lots of different models. Not just for 
humans but for microbes and for plants so we can start to 
understand, for example, carbon allocation in plants and 
microbes, so we have been able to take advantage of those 
opportunities that have been provided through our colleagues 
who are producing these radioisotopes.
    Mr. Ehlers. Well, it is true. Radioisotopes are extremely 
convenient, because they let their presence be known wherever 
they go and with very specific signatures so you can really 
track them very easily. Mass spectrometers work for those that 
aren't radioactive, but that is much more cumbersome.
    Dr. Patrinos said something like the next century is a 
century of biology, and I have to demur just a little bit on 
that, because I remember, even though I wasn't alive then but I 
read the books: In 1906, there were predictions that physics 
was essentially over. We had found everything that was to be 
discovered via physics, and the century turned out to be the 
century of physics.
    So I appreciate your comment. It made me think about it, 
but it tells me that some of our other branches of science 
better get busy, too, if they want to avoid the catastrophe of 
this being known as the century of biology. Now, of course, for 
biologists it is a great thing if it happens.
    I really appreciate the insights you have brought here. I 
mean, I have had lots of questions on this topic and just have 
not had the time to sit down and try and catch up on it, and 
you have done a very concise and very good job of bringing me 
up to date. Thank you very much.
    I yield back.
    Chairman Baird. Mr. Inglis had to race to catch a flight. I 
have just two quick more questions unless--if any of you have 
to catch a flight, tell me. That occasionally happens for 
witnesses. We make them miss, and they have to spend another 
day in this town.

               Jurisdiction Over Nuclear Medicine Issues

    One of the questions, the Senate Energy and Water 
Appropriations Subcommittee has been looking at shifting 
nuclear medicine and medical applications in its jurisdiction 
to nuclear physics. Where do you think, Dr. Gillo, is an 
appropriate residence of this, if I am not asking you to speak 
out of school? If I am, tell me you would rather not comment, 
but what is your expertise and insight into this?
    Dr. Gillo. I think the program is most optimized within 
BER. Within the Nuclear Physics Program the focus really is on 
the production of isotopes, not on the use of isotopes, and so 
it would be far more productive within the BER Program.
    Chairman Baird. Okay. It is not there now, though, right?
    Dr. Gillo. Yes, it is.
    Chairman Baird. Okay. I am sorry. Sorry. You were saying 
earlier it was within the Nuclear Physics Program.
    Dr. Gillo. The Isotope Program is within Nuclear Physics. 
It is best to keep the Medical Applications Program----
    Chairman Baird. Got you.
    Dr. Gillo.--within BER.
    Chairman Baird. Got you. Thank you. That is helpful.

                  Bioremediation and Isotope Research

    Dr. Campbell, talk to us a little bit about bioremediation 
if you would. You know, we have got the Hanford Nuclear Site up 
river. Some of those isotopes make their way down river. Talk 
to us a little bit about what is done there.
    Dr. Campbell. There is a lot of potential in bioremediation 
in that if you think about the isotopes that are of interest 
that have the potential to migrate out, for instance, to the 
Columbia River. It is possible to transform those from mobile 
species, ones that migrate, to immobilized species, ones that 
don't migrate. That is often facilitated through microbial 
interactions, and that is a strong area of research out of the 
BER Program. It is a strong area of research out of EMSL, where 
we are trying to understand how these microbes basically 
transfer electrons to these species, thereby immobilizing them 
in the subsurface environment. If you immobilize them, you know 
where they are. They are easier to accommodate and handle in 
terms of remediation from that point. So----
    Chairman Baird. Let me make sure I understand. You have got 
microorganisms that take radioactive material and demobilize 
it.
    Dr. Campbell. Yeah. It is basically a redox reaction, where 
they transfer an electron to the species, and therefore, 
changes oxidation state, and what happens is it goes from a 
soluble species, one that is soluble in water and therefore 
migrates to an insoluble. It is precipitated into little 
nodules on the surface of these microbes. And, therefore, they 
don't migrate through the subsurface.
    So it is a really nice example of how biology is actually 
helping to remediate, a natural example. The challenge is to 
understand that process so that you can perhaps engineer other 
processes to do similar types of things.
    That is one example. Then there is another way in which you 
can use computational tools to actually stimulate contaminants 
and their migration and transfer through the vadose zone out 
into the subsurface environment and start to mimic their 
reactions along the way as they go. And so it brings together 
both experimental and computational resources.

                     Algae and Harmful Algal Blooms

    Chairman Baird. Okay. We--next week we will have a hearing 
in this committee on harmful algal blooms, which is a growing 
problem. We have a great interest in ocean health issues, and 
any insights into that? I am intrigued by--I know, Dr. 
Campbell, your lab is working on some things related to that.
    Dr. Patrinos, in a different direction, using algae, any 
insights into that, which in the Pacific Northwest and around 
the country is a bipartisan, multi-regional partner, and some 
of the work on this is from Connie Mack, a Republican from 
Florida, and so you have got both corners of the country 
dealing with this. Any insights gained from your work or 
potential that you see?
    Just while I have got you here. We are going to have 
another panel next week, but I know you are doing some work on 
this.
    Dr. Patrinos. Well, algae are among the most ubiquitous of 
species. I mean, they exist everywhere, in the marine world 
especially, and we are, over the last few years through the 
power of genomics, understanding them more and more. Many of 
them, their genomes have been sequenced specifically by the 
Joint Genome Institute.
    So inside synthetic biology, the biology of algae can also 
give us the opportunity and the tools to fight them where they 
are not helping us, where they are hurting the environment 
primarily because of the insults that we cause, for example, 
through many of the fertilizers that end up in the Gulf of 
Mexico and cause the hypoxia, which generates the algal blooms.
    Chairman Baird. So you feel like you are--some of the 
insights you are gaining by just working on the genomics of 
algae could help us understand that?
    Dr. Patrinos. Absolutely.
    Chairman Baird. Dr. Campbell or Dr. Keasling. Either one.
    Dr. Keasling. I might just mention that a lot of these 
algal blooms are due to pollution, as Dr. Patrinos said, that 
it goes into the ocean, and the way these are often cleaned up 
in municipal wastewater treatment plants is through 
microbiology.
    Chairman Baird. Uh-huh.
    Dr. Keasling. Actually, microbes accumulate the phosphates 
and other nutrients that would have otherwise ended up in the 
ocean. Using some of the tools that BER has developed, the 
Joint Genome Institute is trying to understand those microbial 
communities. So they sequenced the communities from these 
wastewater treatment reactors, and they now understand the 
microbes that are responsible for accumulating phosphates, for 
instance, and then this can help us design new wastewater 
treatment plants that are much more effective and lower cost at 
cleaning up these harmful chemicals.
    Chairman Baird. That is a great example. Thanks.
    Dr. Ehlers, do you have any further questions or comments?
    Mr. Ehlers. Just a comment. I appreciate this last 
interchange because I was the one that wrote the legislation 
about the algal blooms, and it is becoming a problem even in 
the Great Lakes, much to everyone's surprise. So it is becoming 
more of a universal problem. Anything you can do to help solve 
that problem is helpful.

                                Closing

    But I also want to conclude just by thanking you. It is a 
terrible experience, frankly, to be a scientist in the 
Congress, because you tend to starve. You know what the 
intellectual community is like, the research community, and how 
you are constantly interacting with people, generating ideas 
and so forth. And there are very few scientists to talk to 
here, and so you have really innervated me again, and I just 
want to thank you for that.
    Chairman Baird. Dr. Ehlers, thank you. I was negligent when 
I mentioned my work with Connie Mack. Dr. Ehlers really has 
been the lead on harmful algal blooms for many, many years, and 
I have been privileged to work with him on that. He really has 
in many, many cases been seeing things that other folks aren't 
looking at, and so Dr. Ehlers, thank you for raising that 
issue. You have been the champion on this issue for many years.
    Starving intellectually in the Congress is an interesting 
observation. We will just leave it at that.
    Any other final comments?
    Voice. Not on this committee.
    Chairman Baird. No, no. This committee is sort of the 
brain----
    Mr. Ehlers. Especially this subcommittee. This is very 
intellectually stimulating.
    Chairman Baird. And today was no exception. Fascinating 
element of research that I think many of us had not been fully 
apprised of before. I am grateful for your service to the 
country and your research, which is very, very exciting, and we 
look forward to working with you. And with that I thank you for 
your time here and all our witnesses and the staff who put this 
meeting together, and the hearing stands adjourned. Thank you 
very much.
    [Whereupon, at 3:15 p.m., the Subcommittee was adjourned.]

                               Appendix:

                              ----------                              


                   Answers to Post-Hearing Questions


Responses by Anna Palmisano, Associate Director for Biological and 
        Environmental Research, Office of Science, U.S. Department of 
        Energy

Questions submitted by Representative Ben R. Lujan

BER clearly sponsors some important work in climate science

Q1a.  While climate modeling work attempts to understand the global 
climate system, how does your monitoring work feed useful data into 
these models? Would you say that you need more experimental data in 
climate monitoring to understand how carbon and other greenhouse gases 
are captured and released in the Earth's oceans, atmosphere, and 
forests?

A1a. BER supports a diversity of scientific research ranging from 
molecular to field scale experiments as well as observational studies 
designed to increase our understanding of specific climate and Earth 
systems processes. That understanding is encapsulated into climate and 
Earth systems models that capture our current and best understanding of 
how these complex and interrelated systems work.
    BER does not directly support environmental monitoring. However, 
data and knowledge derived from our process research, in conjunction 
with monitoring data from agencies such as the National Oceanic and 
Atmospheric Administration and the National Aeronautics and Space 
Administration, support the development and validation of climate 
models. Our climate change research activities carefully balance 
investments in model development, validation, and testing with 
investments in experiments and observations to understand the 
fundamental processes associated with key areas of scientific 
uncertainty.
    Increased scientific understanding is continuously being 
incorporated into state of the art models; and the results from model 
simulations are regularly evaluated in order to inform subsequent 
decisions on needed experimental and observational research. This 
closely coupled, iterative process ensures that our models reflect the 
current state of the science and that our experimental and 
observational science is best directed to improve the models.

Q1b.  How can we help ensure that the scientific work you are doing is 
connected to the science that we need in Congress to understand the 
economic impacts of climate change and the policy impacts of climate 
legislation?

A1b. We appreciate the continued support of Congress for our research 
activities in climate change science; and we are actively engaged in 
research to improve the tools used to help inform policy-makers on 
issues of climate change. DOE's Office of Science supports fundamental 
research to provide improved scientific data and models about the 
potential response of the Earth's climate and terrestrial biosphere to 
changing climate. A key aspect of this research program is the 
specialized area of modeling commonly referred to as Integrated 
Assessment (IA). IA research seeks to understand the complex 
interactions of human and natural systems and to develop and 
continuously improve the integrated models and tools that can be used 
to underpin future national and regional decision-making. IA models are 
often adopted and adapted by various decision-making entities to 
project future scenarios and to evaluate potential impacts, 
adaptations, and vulnerabilities.

                   Answers to Post-Hearing Questions

Responses by Jehanne Gillo, Director for Facilities and Project 
        Management Division, Office of Nuclear Physics, Office of 
        Science, U.S. Department of Energy

Questions submitted by Representative W. Todd Akin

Q1.  What are the current efforts by the Department for biomedical 
research?

A1. Research supported by Office of Science programs, in particular 
radiochemistry and isotope development and production, as well as 
Office of Science scientific user facilities, benefit the biomedical 
research community. For example, research supported by the Office of 
Science's Biological and Environmental Research (BER) program in 
radiochemistry and imaging instrumentation focuses on development of 
new methods for real-time, high-resolution imaging of energy- and 
environmental-relevant biological systems; some of these methods could 
also be used in biomedical research to study biological systems of 
interest to that research community. The Isotope Development and 
Production for Research and Applications program within the Office of 
Science's Nuclear Physics program supports the production of isotopes 
for a broad range of applications, including biomedical applications. 
Likewise, the scientific user facilities supported by the Office of 
Science, such as the synchrotron light sources and neutron sources at 
the DOE national laboratories are used by a broad spectrum of the 
scientific community, including biomedical researchers.
    In addition, the BER Medical Applications activity supports work to 
develop a prototype of an artificial retina; work at DOE laboratories 
is supported in engineering, materials sciences, computational 
sciences, microfabrication, and microengineering, in partnership with 
other federal agencies and the private sector.

Q2.  What are the current efforts to address the international shortage 
of Mo-99/Tc-99m?

A2. The Administration has established an Interagency Working Group to 
coordinate international and domestic efforts to address the shortage 
of molybdenum-99 (Mo-99) and the National Nuclear Security 
Administration (NNSA) is responsible for coordination within DOE. In 
response to the shutdown of the National Research Universal (NRU) 
reactor in Canada earlier this year, the Interagency Working Group, 
together with their counterparts in the Canadian Government, 
investigated options for creating an interim backup supply of Mo-99 in 
North America to mitigate expected production shortages in 2010 if the 
NRU does not resume operation. The group then submitted its options to 
the Office of Science and Technology Policy (OSTP) in the White House, 
where they are currently under review.
    To further support international efforts, the U.S. Departments of 
Energy and Health and Human Services represent the U.S. Government in 
the Organization for Economic Cooperation and Development (OECD)--
Nuclear Energy Agency's (NEA) High Level Group on the Security of 
Supply of Medical Radioisotopes (HLG-MR). The NEA is a specialized 
agency within the OECD, an intergovernmental organization of 
industrialized countries, based in Paris, France. The HLG-MR focuses on 
global supply coordination and contingencies for short-term production 
by fostering information sharing on reactor operating schedules and 
production quantities among Mo-99 producers.

Q3.  How has the current shortage of Mo-99 impacted health care in the 
U.S.?

A3. While the Department of Energy does not have the expertise to 
calculate the impacts to health care in the U.S. attributable to the 
shortage of Mo-99, we observe that in August 2009, the Society of 
Nuclear Medicine (SNM) surveyed members to estimate the impact and the 
response of the medical community to the limited supply of Mo-99 during 
a period when both the NRU in Canada and the High Flux Reactor in the 
Netherlands were not in operation.
    While the SNM survey data include sampling errors due to self-
selection, the data do provide insight on how medical practitioners are 
managing the current Mo-99 shortage. Roughly 20 percent of respondents 
indicated that they are operating at less than 50 percent of their 
normal capacity. The data suggest that medical practitioners appear to 
be managing the limited supply through the deferral of procedures and 
the use of alternative isotopes and procedures.

Q4.  How is DOE supporting the development of domestic supply of Mo-99?

A4. DOE's National Nuclear Security Administration (NNSA) has worked 
with both existing and potential Mo-99 producers for years by making 
technical expertise available, on a non-proprietary basis, to assist in 
converting and developing Mo-99 production processes in accordance with 
the U.S. HEU minimization policy. Through these efforts, NNSA has 
established long-standing relationships with current and potential Mo-
99 producers.
    NNSA is currently working on several cooperative agreements with 
potential commercial Mo-99 producers whose projects are in the most 
advanced stages of development. The objective of the cooperative 
agreements is to accelerate establishment of domestic sources of Mo-99 
without the use of HEU in quantities sufficient to meet U.S. demand by 
the end of 2013. NNSA anticipates that a group of domestic commercial 
producers will be able to meet more than 100 percent of U.S. needs for 
Mo-99 by the end of 2013, thus providing a continuous, sufficient 
supply during periods of facility maintenance or shutdown. Each 
potential commercial producer under NNSA's cooperative agreements uses 
a different non-HEU technology. This strategy aims to ensure that no 
single points of failure exist within the supply network.

Q5.  Will other diagnostic imaging modalities currently in use or 
envisioned replace the need for Mo-99/Tc-99m?

A5. While the Department of Energy does not have the expertise to 
provide a comprehensive answer to this question, to the best of our 
knowledge, the medical community has not identified any other 
alternative procedure that is preferable or comparable to the Mo-99/Tc-
99m procedures.

Q6.  What do you think the cost of the current shortage is to health 
care, to the U.S. Government through Medicare reimbursable?

A6. The Department of Energy does not have the ability to determine the 
anticipated costs of Mo-99 shortages to health care.

                                   

</pre></body></html>
